<html>
<title> - DEVELOPING CORE CAPABILITIES FOR DEEP SPACE EXPLORATION: AN UPDATE ON NASA'S SLS, ORION, AND EXPLORATION GROUND SYSTEMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      DEVELOPING CORE CAPABILITIES
                      FOR DEEP SPACE EXPLORATION:
                    AN UPDATE ON NASA'S SLS, ORION,
                     AND EXPLORATION GROUND SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2019

                               __________

                           Serial No. 116-44

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
37-662 PDF           WASHINGTON : 2020 
      
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
KATIE HILL, California
JENNIFER WEXTON, Virginia

                         C  O  N  T  E  N  T  S

                           September 18, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    13

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    15

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written statement............................................    17

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written statement............................................    19

                               Witnesses:

Mr. Kenneth Bowersox, Associate Administrator (Acting), Human 
  Exploration and Operations, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    21
    Written Statement............................................    23

Ms. Cristina Chaplain, Director, Contracting and National 
  Security Acquisitions, U.S. Government Accountability Office
    Oral Statement...............................................    32
    Written Statement............................................    34

Mr. Doug Cooke, Owner, Cooke Concepts and Solutions; Former 
  Associate Administrator, Exploration Systems, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    59
    Written Statement............................................    61

Discussion.......................................................    90

              Appendix: Answers to Post-Hearing Questions

Mr. Kenneth Bowersox, Associate Administrator (Acting), Human 
  Exploration and Operations, National Aeronautics and Space 
  Administration.................................................   116

Ms. Cristina Chaplain, Director, Contracting and National 
  Security Acquisitions, U.S. Government Accountability Office...   122

Mr. Doug Cooke, Owner, Cooke Concepts and Solutions; Former 
  Associate Administrator, Exploration Systems, National 
  Aeronautics and Space Administration...........................   124


                      DEVELOPING CORE CAPABILITIES

                      FOR DEEP SPACE EXPLORATION:

                    AN UPDATE ON NASA'S SLS, ORION,

                     AND EXPLORATION GROUND SYSTEMS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Horn. This hearing will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time.
    Good morning, everyone. Thank you all for being here. And 
thank you to each of our witnesses for being here. We sincerely 
appreciate it and are looking forward to a good hearing.
    Before I continue, I do want to note for the record that we 
received NASA's (National Aeronautics and Space 
Administration's) testimony less than 24 hours in advance--late 
again. I'm raising this for the record because I gently raised 
the issue at a previous NASA hearing and after having received 
testimony for the next morning. And we gave sufficient notice 
for this hearing. It is important for us to be able to review 
the prepared testimony to get ourselves ready for these 
hearings, so I expect going forward that we will receive NASA's 
testimony in the 48-hour window so that we can read and review 
the testimony in advance of each of the hearings. So I just 
want to make sure we put that on the record. And I'll start 
with my opening statement.
    As I said in the first hearing of this Subcommittee in this 
session, ``Mars is the horizon goal and I want Americans to be 
the first to set foot on the red planet.'' It is a goal worthy 
of this great Nation and NASA's Space Launch System (SLS), 
Orion Crew Vehicle, and Exploration Ground Systems (EGS), are 
essential core capabilities for getting us into deep space and 
onward to Mars. Because I believe in moving human exploration 
forward beyond low-Earth orbit in a safe, sustainable, and 
affordable way is a goal that we all share and want to achieve.
    Today, many eyes are on the Moon--a steppingstone toward 
Mars. The Administration seeks to send humans there by 2024, 4 
years earlier than the President proposed in the initial Fiscal 
Year 2020 budget. Can NASA do so as part of a safe, 
sustainable, and affordable means of achieving this Mars goal?
    At this point, there are many questions that remain to be 
answered:
    <bullet> LWhy did the Administration request 16 percent 
less than the Fiscal Year 2019-enacted levels for SLS, Orion, 
and EGS in its initial request for Fiscal Year 2020 while also 
prioritizing deep space exploration near and on the surface of 
the Moon?
    <bullet> LWhy did the Administration choose not to request 
funding in FY 2020 for an Exploration Upper Stage (EUS) that 
would give SLS more lift capability to carry cargo to deep 
space destinations?
    <bullet> LWhy did NASA abruptly reassign its well-respected 
and longstanding head of the Human Exploration and Operations 
Mission Directorate at a time when NASA is approaching key 
milestones for SLS, Orion, and Commercial Crew, while also 
planning for a Gateway and human landing system, all on very 
tight timelines?
    <bullet> LWhy is NASA not requiring an un-crewed 
demonstration of a human landing system, and is this trading 
sustainability for affordability in a rush to send humans to 
the Moon by 2024?
    <bullet> LIs a human landing on the Moon in 2024 even 
possible? And if it is possible, what is it going to take in 
annual funding, management capacity, and technical capability 
to achieve this goal?
    I'm pleased that NASA and its industry partners and the 
exploration system workforce have made significant strides on 
the SLS and Orion programs in recent months. In July, the Orion 
program successfully tested and demonstrated the Orion launch 
abort system. The SLS program is integrating the core stage 
with the engine section in what will be a major milestone and 
the beginning of a complete rocket. I'm excited because clear 
progress increases confidence.
    However, getting to this point, as we all know, has come 
with major challenges: Flat funding; budget overruns; technical 
problems; issues with program, cost, and schedule management; 
and instances of poor workmanship. The road ahead--integration 
and testing--isn't likely to be any easier. Challenges with 
developing programs and new technology aren't surprising, 
especially when we're asking NASA to push the boundaries of 
innovation in projects that have never been done before. What 
is surprising, though, is that recommendations on how to 
address cost, schedule, and management problems haven't been 
followed.
    As we work to reauthorize NASA, there are still more 
questions that need answers:
    <bullet> LWhat is the new, rescheduled launch readiness 
date for the first, un-crewed SLS and Orion integrated test 
flight?
    <bullet> LHow is NASA guarding against schedule pressure 
given the 2024 lunar landing goal?
    <bullet> LWhat are NASA's plans for completing the 
Exploration Upper Stage, the SLS Block 1B variant, and the 
second Mobile Launch Platform that is needed to launch a Block 
1B vehicle?
    I ask these questions because we need to know the near-term 
status of SLS and Orion and how that affects our overall 
exploration goals.
    The House will soon vote on a continuing resolution for FY 
2020 for funding a relatively ``clean'' C.R. with no additional 
funding for the Moon program. What will this mean for the 2024 
date? In the absence of detailed information, a plan, and an 
estimated budget profile for the Moon program, I can't get to a 
clear answer.
    I believe that the Members of this Subcommittee, on both 
sides of the aisle, share the desire for our Nation to dream 
big in our goals for space exploration and scientific 
discovery, including the goal of sending our astronauts into 
deep space to explore the Moon, Mars, and other destinations. 
Doing so will bring our society untold benefits that we can't 
imagine today, just as global positioning and navigation, 
communications satellites, medical advancements, the 
miniaturized camera technology even in the cell phones that we 
carry around and so much more now are used in our day-to-day 
lives.
    In closing, we need to right the ship for SLS, Orion, and 
EGS and set a sustainable course forward. But if we're serious 
about a human exploration program that ultimately leads to 
landing humans on Mars, we need to build in sustainability, 
accountability, transparency, and affordability from the start. 
We need to learn from our challenges in order to set up a 
structure and manage our future human space flight programs for 
success.
    I look forward to our witnesses' testimony.
    [The prepared statement of Chairwoman Horn follows:]

    Good morning, and welcome to our witnesses. We appreciate 
your being here.
    As I said in the first hearing of the Subcommittee this 
Session, ``Mars is the horizon goal and I want Americans to be 
the first to set foot on the Red Planet.'' It is a goal worthy 
of this great nation and NASA's Space Launch System-SLS-Orion 
Crew Vehicle, and Exploration Ground Systems-EGS-are essential 
core capabilities for getting us into deep space and onward to 
Mars. Because I believe moving human exploration beyond low 
Earth orbit in a safe, sustainable, and affordable way is a 
goal we all share and want to achieve.
    Today, many eyes are on the Moon-a stepping stone toward 
Mars. The Administration seeks to send humans there by 2024, 
four years earlier than the President proposed in the initial 
Fiscal Year 2020 budget request. Can NASA do so as part of a 
safe, sustainable, and affordable means of reaching the Mars 
goal?
    At this point, many questions remain unanswered.
    <bullet> LWhy did the Administration request 16 percent 
less than the FY 2019 enacted level for SLS, Orion and EGS in 
its initial request for fiscal year 2020 while also 
prioritizing deep space exploration near and on the surface of 
the Moon?
    <bullet> LWhy did the Administration choose not to request 
funding in FY 2020 for an Exploration Upper Stage that would 
give SLS more lift-capability to carry cargo to deep space 
destinations?
    <bullet> LWhy did NASA abruptly reassign its well-respected 
and longstanding head of the Human Exploration and Operations 
Mission Directorate at a time when NASA is approaching key 
milestones for SLS and Orion, and Commercial Crew, while also 
planning for a Gateway and human landing system, all on tight 
timelines?
    <bullet> LWhy is NASA not requiring an uncrewed 
demonstration of a human landing system and is this trading 
"sustainability" for "affordability" in a rush to send humans 
to the Moon by 2024?
    <bullet> LIs a human landing on the Moon in 2024 even 
possible? And if it is possible, what is it going to take in 
annual funding, management capacity, and technical capability 
to achieve this goal?
    I'm pleased that NASA, its industry partners, and the 
exploration systems workforce have made significant strides on 
the SLS and Orion programs in recent months. In July, the Orion 
program successfully tested and demonstrated the Orion launch 
abort system. The SLS program is integrating the core stage 
with the engine section in what will be a major milestone and 
the beginning of a complete rocket. I'm excited, because clear 
progress increases confidence.
    However, getting to this point has come with major 
challenges: flat funding, budget overruns, technical problems, 
issues with program, cost, and schedule management, and 
instances of poor workmanship. The road ahead-integration and 
testing-isn't likely to be any easier.
    Challenges with development programs aren't surprising, 
especially when we're asking NASA to push the boundaries of 
innovation in projects that have never been done before. What 
is surprising, though, is that recommendations on how to 
address cost, schedule, and management problems haven't been 
followed.
    As we work to reauthorize NASA, there are still more 
questions that need answers.
    <bullet> LWhat is the new, rescheduled launch readiness 
date for the first, uncrewed SLS and Orion integrated test 
flight?
    <bullet> LHow is NASA guarding against schedule pressure 
given the 2024 lunar landing goal?
    <bullet> LWhat are NASA's plans for completing the 
Exploration Upper Stage, the SLS Block 1B variant, and the 
second Mobile Launch Platform that is needed to launch a Block 
1B vehicle?
    I ask these questions because we need to know how the near-
term status of SLS and Orion affects our overall exploration 
goals. The House will vote soon on a Continuing Resolution for 
FY 2020-a relatively ``clean'' CR with no additional funding 
for the Moon program. What will this mean for the 2024 date? In 
the absence of detailed information, a plan, and an estimated 
budget profile for the Moon program, I can't get to a clear 
answer.
    I believe that Members of this Subcommittee on both sides 
of the aisle share the desire for this nation to dream big in 
our goals for space exploration and scientific discovery, 
including the goal of sending our astronauts into deep space to 
explore the Moon, Mars and other destinations. Doing so will 
bring our society untold benefits that we can't imagine today, 
just as global positioning and navigation, communications 
satellites, medical advancements, and the miniaturized camera 
technologies that are now used in our smart phones have 
demonstrated.
    In closing, we need to right the ship for SLS, Orion, and 
EGS and set a sustainable course going forward. But if we're 
serious about a human exploration program that ultimately leads 
to landing humans on Mars, we need to build in sustainability, 
accountability, transparency, and affordability from the start. 
We need to learn from our challenges in order to set-up, 
structure, and manage our future human space flight programs 
for success. I look forward to our witness' testimonies.
    Thank you.

    Chairwoman Horn. I recognize the Ranking Member for your 
opening statement.
    Mr. Babin. Thank you, Madam Chair. Great to be here, and 
thank you, witnesses. Looking forward to your testimonies.
    NASA's long-term goal, as laid out consistently in 2005, 
2008, 2010, and the 2017 NASA Authorization Acts, is to explore 
the Moon, Mars, and beyond in steppingstone approach based on 
available funding.
    Numerous reports over the last 50 years have all determined 
that we need at least a 40- to 60-ton launch vehicle, and 
ideally a 130-ton launch vehicle, to conduct any meaningful 
exploration of deep space. We also need a crew capsule that can 
operate for extended periods in deep space with sufficient 
environmental controls and life support systems and in-space 
propulsion capability, and the ability to withstand reentry 
from the Moon and from Mars. The Space Launch System, Orion 
Crew Vehicle, and Exploration Ground Systems are the only 
systems designed to operate beyond low-Earth orbit. They are 
the tip of the spear of our Nation's deep space exploration 
efforts.
    SLS and Orion will enable U.S. astronauts to return to the 
Moon for the first time since Gene Cernan left his daughter's 
name in the lunar regolith in 1972. As Vice President Pence 
said in the inaugural meeting of the reestablished National 
Space Council, ``We will return American astronauts to the 
Moon, not only to leave behind footprints and flags, but also 
to build the foundation that we need to send Americans on to 
Mars and beyond.''
    I wholeheartedly support the Administration's call to 
return to the Moon and its renewed sense of urgency. This 
Committee has received testimony time and time again that the 
Moon is the appropriate next destination for our space program. 
Returning to the Moon does not have to mean delaying a mission 
to Mars. On the contrary, it is the logical step that enables 
exploration of the red planet and beyond.
    And while I'm excited by the promise of how strategic 
assets like SLS and Orion will enable America's return to the 
Moon, this Committee has a responsibility to conduct oversight 
to ensure that these programs are successful. All three 
exploration systems: SLS, Orion, and Ground Systems have 
experienced many delays and cost overruns over the years. Some 
of the setbacks were caused by Administrations that tried to 
stifle program budgets and even cancel the programs. Some of 
the issues were caused by unforeseen events like tornadoes and 
hurricanes. But many of the issues recently were caused by poor 
execution. As the GAO (Government Accountability Office) 
testimony reports, quote, ``management and oversight problems 
are the real drivers behind program cost and schedule growth,'' 
unquote. Congress needs to understand where the program is 
today. What cost, schedule, and performance deliverables can 
the agency commit to? What is the plan going forward? How will 
NASA manage future issues to ensure long-term program 
sustainability?
    As I said at the last hearing on these programs, we aren't 
out of the woods yet, but we can now see the edge of the forest 
at least. Significant progress has been made, but not as much 
as we had hoped. We must have that sense of urgency.
    In order to meet our Nation's space exploration goals, it 
will take focus and discipline, continuity of effort to go 
forward. The Administration and Congress must not only provide 
leadership and direction, but we must also appropriately fund 
and oversee these programs. NASA must develop future 
exploration architectures that use the capabilities of SLS and 
Orion to their full potential rather than setting them up for 
failure.
    Similarly, NASA and the contractors must execute, and 
failure to do so could have dire consequences for the whole 
program, and there will be no one else to blame. The 
Administration has demonstrated its renewed support. Congress 
consistently funds the program at healthy levels. It is time 
for NASA and the contractors to deliver.
    And I am very thankful that our witnesses are here today to 
help us better understand where we are in this program, and how 
we plan to move forward. And I look forward to your testimony.
    And thank you, Madam Chair. I yield back.
    [The prepared statement of Mr. Babin follows:]

    NASA's long-term goal, as laid out consistently in the 
2005, 2008, 2010, and 2017 NASA Authorization Acts, is to 
explore the Moon, Mars, and beyond in stepping stone approach 
based on available funding.
    Numerous reports over the last 50 years have all determined 
that we need at least a 40-60 ton launch vehicle, and ideally a 
130 ton launch vehicle, to conduct any meaningful exploration 
of deep space. We also need a crew capsule that can operate for 
extended periods in deep space with sufficient environmental 
controls and life support systems and in-space propulsion 
capability, and the ability to withstand reentry from the Moon 
and Mars. The Space Launch System (SLS), Orion Crew Vehicle, 
and Exploration Ground Systems are the only systems designed to 
operate beyond low Earth orbit. They are the tip of the spear 
of our nation's deep space exploration efforts.
    SLS and Orion will enable U.S. astronauts to return to the 
Moon for the first time since Gene Cernan left his daughter's 
name in the lunar regolith in 1972. As Vice President Pence 
said in the inaugural meeting of the reestablished National 
Space Council, ``We will return American astronauts to the 
Moon, not only to leave behind footprints and flags, but to 
build the foundation we need to send Americans to Mars and 
beyond.''
    I wholeheartedly support the Administration's call to 
return to the Moon and renewed sense of urgency. This Committee 
has received testimony time and again that the Moon is the 
appropriate next destination for our space program. Returning 
to the Moon does not have to mean delaying a mission to Mars. 
On the contrary, it is a logical step that enables exploration 
of the red planet and beyond.
    While I am excited by the promise of how strategic assets 
like SLS and Orion will enable America's to return to the Moon, 
this Committee has a responsibility to conduct oversight to 
ensure these programs are successful. All three exploration 
system elements - SLS, Orion, and Ground Systems - have 
experienced many delays and overruns over the years. Some of 
the setbacks were caused by Administrations that tried to 
stifle program budgets and even cancel the programs.
    Some of the issues were caused by unforeseen events like 
tornadoes and hurricanes. But many of the issues recently were 
caused by poor execution. As the GAO's testimony reports, 
``...management and oversight problems are the real drivers 
behind program cost and schedule growth.'' Congress needs to 
understand where the program is today. What cost, schedule, and 
performance deliverables can the agency commit to? What is the 
plan going forward? How will NASA manage future issues to 
ensure long-term program sustainability?
    As I said at the last hearing on these programs, we aren't 
out of the woods yet, but we can see the edge of the forest. 
Significant progress has been made, but not as much as we had 
hoped. We must have a sense of urgency.
    In order to meet our nation's space exploration goals, it 
will take focus, discipline, and continuity of effort going 
forward. The Administration and Congress must not only provide 
leadership and direction, but we also must appropriately fund 
and oversee the program. NASA must develop future exploration 
architectures that use the capabilities of SLS and Orion to 
their full potential rather than setting them up for failure.
    Similarly, NASA and the contractors must execute. Failure 
to do so could have dire consequences for the program, and 
there will be no one else to blame. The Administration has 
demonstrated its renewed support. Congress consistently funds 
the program at healthy levels. It is time for NASA and the 
contractors to deliver.
    I am thankful that our witnesses are here today to help us 
better understand where we are at with the program, and how we 
plan to move forward. I look forward to your testimony.

    Chairwoman Horn. Thank you, Mr. Babin.
    The Chair now recognizes the Chairwoman of the Full 
Committee, Ms. Johnson, for an opening statement.
    Chairwoman Johnson. Thank you very much and good morning 
and welcome to our witnesses and thanks to all the Subcommittee 
Members who are present.
    I want to thank you, Chairwoman Horn and Ranking Member, 
for today's hearing on NASA's Space Launch System, the Orion 
Crew Vehicle, the Exploration Ground Systems, which are 
essential elements of the Nation's human exploration program.
    I want to echo Chairwoman Horn's comment about the lateness 
of NASA's testimony. NASA was provided ample advance notice of 
this hearing and more than sufficient time to prepare testimony 
and have it reviewed by OMB (Office of Management and Budget) 
or whomever else looks over NASA's testimony these days. The 
fact that this testimony is overdue is not only frustrating, it 
leaves Members little opportunity to consider NASA's testimony 
in advance of the hearing. If NASA and the Administration can't 
meet simple hearing deadlines, it doesn't inspire great 
confidence in their ability to meet the much harder deadline of 
landing astronauts on the Moon by 2024.
    Turning to the focus of this hearing, we are going to need 
SLS, Orion, and the associated ground systems if we are going 
to send our astronauts to the worlds beyond our own, whether 
it's to the Moon or Mars or other destinations. We need to be 
sure they are developed efficiently and are well-managed.
    I certainly want this Nation to explore deep space with 
humans once again, and I think it is a sentiment shared by 
Members on both sides of the aisle. However, having recently 
reflected on the 50th anniversary of Apollo 11, it's clear that 
we need to do it right: Safely, sustainably, and affordably. 
That's not an easy task.
    The Apollo program was aggressive and bold, but it also 
featured extensive testing, the efforts of hundreds of 
thousands of dedicated civil servants and contractors, relative 
budgetary stability, and an effective organizational structure 
led by experienced engineers and program managers. It also had 
the benefit of an extensive series of Mercury and Gemini 
precursor missions that helped mature the design and 
operational techniques used in the Apollo program.
    As I look at the few details that are available on the 
Trump Administration's 2024 Moon landing initiative, the 
contrast with Apollo is striking and troubling. It has been 47 
years since we sent astronauts beyond low-level orbit. It has 
been almost a decade since an American spacecraft sent 
astronauts into space at all. Yet the Administration's plan 
requires astronauts to attempt a lunar landing on only the 
second crewed flight beyond low-Earth orbit after what by then 
will have been a 50-year hiatus, with no real plans for prior 
crewed preparatory flights in low-Earth orbit. And based on the 
information available to date, that landing attempt could also 
be the first flight of the lunar landing and ascent vehicles 
and transfer vehicles. That is, the schedule doesn't appear to 
baseline any test flights prior to the first crewed lunar 
landing attempt.
    That first lunar landing attempt will also be the first 
crewed visit to the Gateway. There will be no prior crewed 
visits to the Gateway to check it out before using it to 
initiate the lunar landing attempt. And under current plans, it 
looks like the Administration is proposing to have the set of 
three lunar landing system vehicles--vehicles that do not yet 
exist either in government or in the private sector--be 
provided for NASA's use under a fixed-price commercially 
provided service. That is, the government would not own them or 
have any significant oversight of their development. And of--
all of this would have to happen by 2024.
    Moreover, it has now been more than 2 months since the head 
of the NASA Human Exploration and Operations Directorate was 
removed from his position with no permanent replacement yet 
identified even though that position is critical to the success 
of NASA's Exploration and ISS (International Space Station) 
programs. And we have been told not to expect a cost estimate 
or budget plan for the President's Moon program before next 
year.
    I could go on, but I hope that my point is clear. Rhetoric 
about American leadership in space and advancing the role of 
women in spaceflight is all well and good, but it is not a 
substitute for a well-planned, well-managed, well-funded, and 
well-executed exploration program. To date, Congress has not 
been given a credible basis for believing that the President's 
Moon 2024 program satisfies any of those criteria.
    In short, if Congress is to support such a program, the 
Administration is going to have to do a lot more to provide 
such evidence.
    I again want to welcome all of our witnesses, and I look 
forward to your testimony.
    And with that, Madam Chair, I yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to our witnesses.
    I want to thank Subcommittee Chairwoman Horn for holding 
today's hearing on NASA's Space Launch System, Orion crew 
vehicle, and Exploration Ground Systems, which are essential 
elements of the nation's human exploration program.
    I also want to echo Chairwoman Horn's comment about the 
lateness of NASA's testimony. NASA was provided ample advance 
notice of this hearing and more than sufficient time to prepare 
testimony and have it reviewed by OMB and whomever else looks 
over NASA's testimony these days. The fact that this testimony 
is overdue is not only frustrating, it leaves Members little 
opportunity to consider NASA's testimony in advance of the 
hearing. If NASA and the Administration can't meet simple 
hearing deadlines, it doesn't inspire great confidence in their 
ability to meet the much harder deadline of landing astronauts 
on the Moon by 2024.
    Turning to the focus of this hearing, we are going to need 
SLS, Orion, and the associated ground systems if we are going 
to send our astronauts to worlds beyond our own, whether it's 
the Moon, Mars or other destinations. We need to be sure they 
are developed efficiently and are well managed. I certainly 
want this nation to explore deep space with humans once again, 
and I think that is a sentiment shared by Members on both sides 
of the aisle. However, having recently reflected on the 50th 
anniversary of Apollo 11, it's clear that we need to do it 
right-safely, sustainably, and affordably.
    That's not an easy task. The Apollo program was aggressive 
and bold, but it also featured extensive testing, the efforts 
of hundreds of thousands of dedicated civil servants and 
contractors, relative budgetary stability, and an effective 
organizational structure led by experienced engineers and 
program managers. It also had the benefit of an extensive 
series of Mercury and Gemini precursor missions that helped 
mature the design and operational techniques used in the Apollo 
program. As I look at the few details that are available on the 
Trump Administration's 2024 Moon landing initiative, the 
contrast with Apollo is striking and troubling.
    It has been 47 years since we sent astronauts beyond low 
Earth orbit. It has been almost a decade since an American 
spacecraft sent astronauts into space at all. Yet the 
Administration's plan requires our astronauts to attempt a 
lunar landing on only the second crewed flight beyond low Earth 
orbit after what by then will have been a 50-year hiatus, with 
no real plans for prior crewed preparatory flights in low Earth 
orbit. And based on the information available to date, that 
landing attempt could also be the first flight of the lunar 
landing and ascent vehicles and transfer vehicle. That is, the 
schedule doesn't appear to baseline any test flights prior to 
the first crewed lunar landing attempt. That first lunar 
landing attempt will also be the first crewed visit to the 
Gateway. There will be no prior crewed visits to the Gateway to 
check it out before using it to initiate the lunar landing 
attempt.
    And under current plans, it looks like the Administration 
is proposing to have the set of three lunar landing system 
vehicles-vehicles that do not yet exist either in government or 
in the private sector-be provided for NASA's use under a fixed 
price commercially-provided service. That is, the government 
would not own them or have any significant oversight of their 
development. And all of this would have to happen by 2024.
    Moreover, it has now been more than two months since the 
head of the NASA Human Exploration and Operations Directorate 
was removed from his position, with no permanent replacement 
yet identified-even though that position is critical to the 
success of NASA's Exploration and ISS programs. And we have 
been told not to expect a cost estimate or budget plan for the 
President's Moon program before next year.
    I could go on, but I hope my point is clear. Rhetoric about 
American leadership in space and advancing the role of women in 
spaceflight is all well and good, but it is not a substitute 
for a well planned, well managed, well funded, and well 
executed exploration program. To date, Congress has not been 
given a credible basis for believing that the President' Moon 
2024 program satisfies any of those criteria. In short, if 
Congress is to support such a program, the Administration is 
going to have to do a lot more to provide such evidence.
    I again want to welcome our witnesses, and I look forward 
to your testimony. With that, I yield back the balance of my 
time.

    Chairwoman Horn. Thank you, Chairwoman Johnson.
    The Chair now recognizes the Ranking Member of the full 
Committee and fellow Oklahoman, Mr. Lucas, for an opening 
statement.
    Mr. Lucas. Thank you, Madam Chair.
    When we celebrated the 50th anniversary of the Moon landing 
this summer, it was a great reminder of the great things that 
we can achieve with perseverance, technical excellence, and a 
pioneering spirit. The Trump Administration has harnessed this 
spirit of discovery and focused our human space exploration 
efforts. By staying the course on programs like Space Launch 
System, Orion, Exploration Ground Systems, the Administration 
is ensuring that our national goals to explore the Moon, Mars, 
and beyond will be achieved. This support is backed up by this 
Administration with its robust funding request.
    Year after year, the Trump Administration has proposed 
increased funding for NASA Exploration Systems, only to have 
Congress appropriate even more than the Administration 
requested. This year, the Administration took the extraordinary 
step of amending its budget by requesting an additional $1.6 
billion to accelerate our return to the Moon by 2024. This will 
serve as a down payment on the systems necessary to enable this 
goal. The primary elements are already well under development.
    The Space Launch System, Orion Crew Capsule, and the 
Exploration Ground Systems will serve as the foundation for 
future exploration of the Moon and Mars. Congress has also 
provided consistent funding for the advanced capacities like 
the Exploration Upper Stage and additional Mobile Launch 
Platforms. These will accelerate the development of a 130-ton 
launch vehicle, which is optimum for deep space exploration.
    This steady funding is a blessing and, yes, a curse. Too 
often programs become complacent when funding is taken for 
granted. Congress and NASA need to be good stewards of taxpayer 
dollars and ensure these programs stay focused, on schedule, 
and within cost.
    But adequately funding SLS, Orion, and ground systems are 
only part of what is needed for a lunar exploration. NASA also 
needs to develop a human lander and associated support systems. 
NASA's budget request already plants the seeds for technologies 
that will be necessary, but it is scheduled to deliver a more 
detailed plan with their Fiscal Year 2021 budget proposal. I 
look forward to reviewing that upcoming request.
    Nearly 30 years ago, western Oklahoma's favorite son, 
General Tom Stafford, delivered a report entitled, ``America at 
the Threshold.'' My friends, we are once again at the 
threshold, and our actions will determine our future space 
leadership. But unlike 30 years ago, we have hardware ready to 
be delivered, an Administration with a sense of urgency, and a 
Congress that I believe is onboard.
    We also have new challenges to our leadership in space. 
Last year, China conducted the most launches in the world. They 
have already launched crewed missions and a temporary space 
station. They landed a rover on the far side of the Moon--a 
first for humanity--and plan to land a crew on the Moon in the 
coming years. They are also seeking international partnerships. 
We have a responsibility to ensure that America remains the 
world leader in space exploration, that humanity's push into 
deep space is led by freedom and liberty rather than communism.
    As our Nation once again stood at the threshold of deep 
space, it is up to Congress to fund the program appropriately. 
It is also up to NASA to develop a plan that maximizes the down 
payments made on SLS, Orion, and ground systems. We cannot 
afford to cede our leadership in space exploration. I trust, I 
believe, I have confidence that we can all work together to 
achieve our shared goals.
    I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    When we celebrated the 50th anniversary of the Moon landing 
this summer, it was a great reminder of the great things we can 
achieve with perseverance, technical excellence, and a 
pioneering spirit. The Trump Administration has harnessed this 
spirit of discovery and focused our human space exploration 
efforts. By staying the course on programs like the Space 
Launch System, Orion, and Exploration Ground Systems, the 
Administration is ensuring that our national goals to explore 
the Moon, Mars, and beyond will be achieved. This support is 
backed up by this Administration with its robust funding 
requests.
    Year after year, the Trump Administration has proposed 
increased funding for NASA Exploration Systems, only to have 
Congress appropriate even more than the Administration 
requested. This year the Administration took the extraordinary 
step of amending their budget by requesting an additional $1.6 
billion to accelerate our return to the Moon by 2024. This will 
serve as a down payment on the systems necessary to enable this 
goal. The primary elements are already well under development.
    The Space Launch System, the Orion Crew Capsule, and the 
Exploration Ground Systems will serve as the foundation for the 
future exploration of the Moon and Mars. Congress has also 
provided consistent funding for advanced capabilities like the 
Exploration Upper Stage and additional Mobile Launch Platforms. 
These will accelerate the development of a 130 ton launch 
vehicle, which is optimum for deep space exploration.
    But this steady funding is a blessing and curse. Too often 
programs become complacent when funding is taken for granted. 
Congress and NASA need to be good stewards of taxpayer dollars 
and ensure these programs stay focused, on schedule, and within 
cost.
    But adequately funding SLS, Orion, and ground systems are 
only part of what is needed for Lunar exploration. NASA also 
needs to develop a Human Lander and associated support systems. 
NASA's budget request already plants the seeds for technologies 
that will be necessary, but it is scheduled to deliver a more 
detailed plan with their fiscal year 2021 budget proposal. I 
look forward to reviewing the upcoming request.
    Nearly 30 years ago, western Oklahoma's favorite son, Gen. 
Tom Stafford, delivered a report titled ``America at the 
Threshold.'' Folks, we are once again at the threshold and our 
actions now will determine our future leadership in space. But 
unlike 30 years ago, we have hardware ready to be delivered, an 
Administration with a sense of urgency, and a Congress that is 
onboard.
    We also have new challenges to our leadership in space. 
Last year China conducted the most launches in the world. They 
have already launched crewed missions and a temporary space 
station. They landed a rover on the far side of the Moon - a 
first for humanity - and plan to land a crew on the Moon in the 
coming years. They are also seeking international partnerships. 
We have a responsibility to ensure that America remains the 
world leader in space exploration, and that humanity's push 
into deep space is led by freedom and liberty rather than 
communism.
    As our nation once again stand at the ``threshold'' of deep 
space, it is up to Congress to fund the program appropriately. 
It is also up to NASA to develop a plan that maximizes the down 
payments made on SLS, Orion, and Ground Systems. We cannot 
afford to cede our leadership in space exploration. I trust we 
can all work together to achieve our shared goals.

    Chairwoman Horn. Thank you, Ranking Member Lucas.
    And at this time I would like to introduce our witnesses. 
Our first witness today is Mr. Kenneth Bowersox, acting 
Associate Administrator for NASA's Human Exploration and 
Operations Mission Directorate where he provides the agency 
with leadership and management of NASA's human exploration 
space operations in and beyond low-Earth orbit. Mr. Bowersox 
was selected to the Astronaut Corps in 1987 and logged over 200 
days in space. He went on to serve as a Director of Johnson 
Space Center's Flight Crew Operations Directorate, and 
previously, he was a member of the Standing Review Boards for 
the ISS, Space Shuttle, and the Constellation Program and was 
Vice President of Astronaut Safety and Mission Assurance at 
Space Exploration Technologies. Mr. Bowersox also served as the 
Chair of NASA's Advisory Council's Human Exploration and 
Operations Committee.
    Mr. Bowersox received a degree in aerospace engineering 
from the United States Naval Academy and holds the rank of 
Captain in the United States Navy. Mr. Bowersox was also 
inducted into the Astronaut Hall of Fame in 2010. Welcome, Mr. 
Bowersox. We're glad that you're with us today.
    Our second witness is Ms. Cristina Chaplain. Ms. Chaplain 
serves currently as a Director in the Contracting and National 
Security Acquisitions Team at the U.S. Government 
Accountability Office, the GAO. She has responsibility for GAO 
assessments of NASA, military space programs, and the Missile 
Defense Agency. She has recently led reviews on the Space 
Launch System, the Orion Crew Capsule, the James Webb 
Telescope, Commercial Cargo and Crew Systems, the Global 
Positioning System, Cyber Protection for Weapons, and Space 
Leadership. Ms. Chaplain has been with the GAO for 28 years, 
and prior to her current position, she worked with GAO's 
Financial Management and Information Technology Teams.
    She received a bachelor's degree magna cum laude in 
international relations from Boston University and a master's 
degree in journalism from Columbia University. Welcome, Ms. 
Chaplain.
    Our final and third witness today is Mr. Doug Cooke, an 
aerospace consultant with over 46 years' experience in human 
spaceflight programs. Mr. Cooke provides expertise on company 
and program strategies, program management, space policy, 
proposal development, strategic planning, and technical 
matters. Mr. Cooke previously served as the Associate 
Administrator for Exploration Systems Mission Directorate at 
NASA. While at NASA, Mr. Cooke was responsible for leading 
efforts to adopt the current vehicle designs for SLS and Orion. 
Mr. Cooke was also the Deputy Director of Exploration Systems 
Mission Directorate and previously spent over 30 years at 
Johnson Space Center in a variety of management and engineering 
positions.
    He received a bachelor's degree summa cum laude in 
aerospace engineering from Texas A&M University. Welcome, Mr. 
Cooke.
    As our witnesses, you should all know that you'll each have 
5 minutes for your spoken testimony. Your written testimony 
will be included in the record for the hearing. When you've 
completed your spoken testimony, we will begin with questions, 
and each Member will then have 5 minutes to question the panel. 
And we will start today with Mr. Bowersox.

                 TESTIMONY OF KENNETH BOWERSOX,

               ASSOCIATE ADMINISTRATOR (ACTING),

               HUMAN EXPLORATION AND OPERATIONS,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bowersox. Good morning. It's great to be here with you 
today representing the men and women who serve in NASA's Human 
Exploration and Operations Mission Directorate. It's an honor 
for me to serve as the acting Associate Administrator for our 
directorate where our team works every day to move humanity's 
presence out into the solar system and gathers knowledge that 
makes lives better here on Earth.
    The main topics of the hearing today are exploration 
systems development programs: The Orion spacecraft, the Space 
Launch System, and the Exploration Ground Systems required to 
prepare and launch the SLS with Orion.
    Since I joined NASA as the Deputy Associate Administrator 
for Human Exploration and Operations in February of this year, 
I've been steadily impressed by the progress in all three of 
these programs. The first core stage of the Space Launch System 
is within months of completion at the Michoud Assembly Facility 
in Louisiana. The Orion vehicle for the first un-crewed flight 
of Orion around the Moon is at Kennedy Space Center perched on 
top of its European-built Service Module and just about ready 
to be shipped for testing to the Plum Brook Station vacuum 
facility in Cleveland. And the Exploration Ground Systems in 
Florida are undergoing some of their final tests in preparation 
for stacking of the solid rocket boosters, core stage, interim 
cryogenic propulsion stage, the Orion spacecraft, and its 
launch abort system for the first Artemis mission.
    During the design, development, test, and assembly of all 
the parts I just mentioned, the programs have had their share 
of issues. Some of the issues were first-time build issues, 
some of the issues were due to changes in production processes, 
and some were issues we could have predicted. Many of those 
issues added time and cost under the effort to build the 
systems.
    Despite these difficulties, the team has persisted, and 
we're getting closer every day to the launching of Artemis 1. 
While it's still early to declare a precise date of when we'll 
attempt to launch the first Artemis mission, my team and I are 
intent on maintaining the proper balance among holding 
schedule, understanding the cost, and learning what we need to 
be sure our exploration systems are ready for the crews of 
subsequent Artemis missions to fly to the Moon, return to 
Earth, and share their stories with the rest of us.
    This year, we celebrated the 50th anniversary of the first 
landing of humans on the Moon. It's thrilling to know that 
we're so close to sending humans to the Moon again and that all 
of us here are part of that effort. I look forward to answering 
your questions today and sharing more about our development of 
SLS, Orion, and the ground systems for deep space exploration.
    [The prepared statement of Mr. Bowersox follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairwoman Horn. Thank you, Mr. Bowersox. Ms. Chaplain, 
you're recognized.

                 TESTIMONY OF CRISTINA CHAPLAIN,

               DIRECTOR, CONTRACTING AND NATIONAL

             SECURITY ACQUISITIONS, U.S. GOVERNMENT

                     ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you. Chairman Horn, Ranking Member 
Babin, Chairwoman Johnson, Ranking Member Lucas, thank you for 
inviting me today to discuss the Space Launch System, Orion 
Crew Capsule, and supporting ground systems. We last reported 
on the status of these programs in June 2019, and I recognize 
there's been some noteworthy progress since our work. The 
successful test of Orion's launch abort system is one example.
    However, we've been auditing these programs for about 5 
years and have consistently raised concerns about management. 
I'd like to highlight three concerns that remain today.
    First, the schedule has always been too optimistic. Before 
a baseline was set, it was envisioned the first launch of SLS 
would occur in December 2017. NASA appropriately recognized 
that date was unrealistic when it committed to a date for 
Congress, but that November 2018 baseline date was also too 
optimistic. NASA reset that date to no later than June 2020, 
and within a year, we found that it was unlikely that this date 
could be met. NASA is once again reviewing its launch dates at 
this time.
    Second, costs have not been transparent. For 5 years we've 
only had cost estimates for the first flight of SLS and the 
second flight of Orion. We do not know what these programs will 
cost over time or what each launch will cost. We do not have 
ranges of what costs would be for certain types of missions. 
Most recently, we found that updates to the estimate for SLS 
and Orion were underreporting costs. For example, NASA moved 
hundreds of millions of dollars of costs away from the SLS 
estimate because it believed they were tied more to future 
missions, but it did not change the baseline cost estimate. 
This had the effect of distorting cost growth. Moreover, 
without baselines for future costs, there's no way to account 
for the costs that were shifted out. In other words, we cannot 
easily track what's being spent right now on the future. NASA 
is also reviewing its cost estimates at this time. We do not 
know if the future--the next estimates will cover future costs.
    Third, programs have been consistently run with low levels 
of cost and schedule reserves. Human spaceflight programs face 
a wide range of inherent technical design and engineering 
risks. Many problems that will be encountered are not always 
easy to anticipate. The best way to prepare for these risks is 
to set aside cost and schedule reserves. NASA has done so for 
other major projects, which has contributed to better 
acquisition performance.
    Reserves are not a panacea. We still see that even programs 
with healthy reserves such as the James Webb Telescope can 
still experience considerable costs and schedule growth. But 
not providing reserves exacerbates an already risky situation. 
At the same time, it's important to recognize that there are 
external factors such as funding requests or decisions that may 
not match development needs that help influence this practice.
    We have other concerns about these programs as well. For 
example, contracts are not definitized for many months, which 
limited NASA's ability to manage contractor performance. When 
performance was not good, contractors still received award 
fees. Quality and workmanship problems contributed to many 
months of rework and delay. It's unrealistic to think that cost 
and schedule growth can be prevented altogether, but better 
management practice can help reduce the impacts of problems 
that arise.
    My statement details practices that can be adopted. I'd 
like to emphasize a few key ones. First, in starting new 
efforts, it's important to maximize competition and have a 
long-term strategy or vision that can help guide technology 
design and requirements decisions. Congress and the 
Administration need to be key players in the long-term strategy 
development.
    In managing programs, contracts need to be structured to 
provide the right incentives at the right times, and contractor 
oversight needs to be optimized. This can be done by breaking 
large contracts into smaller pieces using earned value 
management analyses to track performance, and having insight 
into quality management practices, as well as rewarding good 
performance and not rewarding poor performance.
    Last, to meet the challenge of going to the Moon by 2024, 
it may be necessary for NASA to take on more schedule risks and 
to conduct many activities concurrently. Having backup plans 
will be key to managing these risks, as well as establishing 
good configuration management practices, detailed architectures 
to help guide and manage decisions, and candid reporting to 
Congress, especially as problems occur.
    This concludes my statement, and I'm happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairwoman Horn. Thank you, Ms. Chaplain. Mr. Cooke.

                    TESTIMONY OF DOUG COOKE,

            OWNER, COOKE CONCEPTS AND SOLUTIONS, AND

                FORMER ASSOCIATE ADMINISTRATOR,

                 EXPLORATION SYSTEMS, NATIONAL

              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Cooke. Thank you, Chairwoman Horn, Ranking Member 
Babin, Chairwoman Johnson, and Ranking Member Lucas. Thank you 
also to the Members of the Committee for this opportunity to 
address the current state of deep space exploration. It is an 
endeavor I've devoted much of my life and career to. I truly 
appreciate your interest. I also thank the people at NASA and 
industry who work very hard every day to make these programs 
happen and successful.
    I defer to Ken Bowersox for specifics of the program. I 
will focus on how SLS and Orion came into being for context and 
how they are being used.
    What I consider to be the most straightforward approach to 
a near-term human lunar landing and management solutions from 
my experience in the Space Shuttle, Space station, and 
exploration programs given concerns in recent GAO reports and 
my own observations. There is much more extensive detail on all 
this in my written testimony.
    The Space Launch System, Orion, and ground systems were 
designed based on goals, objectives, requirements, and 
constraints. At the highest level, space programs are guided by 
space policy from Administrations and Congress, which initiate 
the programs that enhance our national leadership, commerce, 
scientific knowledge, international relationships, and more. 
These objectives drive what capabilities and missions are 
needed. They lead to space and surface systems that will have 
to be transported.
    For 30 years, human missions to the Moon and Mars have been 
envisioned in policy. Over this period, I've been part of or 
led much of the study and planning that has been done. All 
studies have led to the requirement for a capsule and a heavy 
lift vehicle as the most critical elements in the human 
exploration architecture. A blunt-shaped entry capsule with 
high-temperature materials is required for high velocities from 
the lunar and Mars distances. As an example, the Space Shuttle 
could not have survived.
    A heavy lift vehicle on the order of 100 to 130 metric tons 
or more with a large payload volume is needed for the large 
heavy elements. Anything less overconstrains landers and 
habitats. The specific decision process and component choices 
for SLS are in my written testimony.
    The fewer launches and critical operations per mission, the 
higher the probability of mission success. Documentaries of 
Apollo 11 during the 50th anniversary reminded me about how 
much anxious anticipation you have as each critical flight 
operation occurs knowing that failure can be mission-ending or 
life-threatening. It's also true in robotic missions. Recall 
the JPL (Jet Propulsion Laboratory) Curiosity Mission and ``7 
Minutes of Terror'' as the team waited for the signal of the 
Mars landing.
    NASA's current approach to the first lunar landing has 
numerous launches, one SLS carrying Orion and several more 
extended commercial launch vehicles with eight new flight 
elements, including Gateway elements. SLS is not used for the 
lander or ascent vehicles, and the lander even has to be fueled 
at the Gateway. Therefore, SLS is not being used for what it 
was designed to do other than carry Orion.
    The approach has about 17 of these critical mission 
operations that have to go right for this first Moon mission to 
succeed. Based on past experience, it also seems high risk for 
eight new procurements and developments to succeed by the 
Administration's mandated 2024 landing date. If NASA focuses on 
the investment in the ongoing SLS with the EUS, Orion, and 
ground system developments, there is a better chance of making 
an earlier date. NASA should pursue an SLS payload shroud to 
get to 100-plus metric ton launch capability with the EUS. Then 
I believe a crew and less-constrained lander can be launched to 
the Moon with two SLS launches.
    NASA can focus on new development energy on an integrated 
lander and surface spacesuit. That's still a lot to accomplish 
in new developments. The Gateway can be deferred until later, 
and there will be opportunities for commercial vehicles.
    I recognize that there have been concerns and issues with 
these programs that the GAO and others have reported. There are 
delays. Based on my observations and reading the GAO reports, I 
believe a strong systems engineering integration effort across 
the program and a prime integration contractor are needed to 
improve reporting and to work problems on--problems on the 
interfaces expeditiously between program elements. It can 
maintain an accurate, integrated schedule tied to budget. It 
can provide the oversight where needed. This is what was done 
on the Space Station program between Space Station Freedom and 
the International Space Station programs. It was needed. These 
programs now are 24/7.
    At this point there needs to be urgency to get them done. 
This is a time to bear down on these programs with strong 
leadership and the organizational structure to take advantage 
of investments we are making and achieve the earliest possible 
landing date with capabilities that lead to a sustainable 
exploration program. I welcome your questions. Thank you.
    [The prepared statement of Mr. Cooke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
   
    Chairwoman Horn. Thank you, Mr. Cooke. We'll now begin with 
questions. As you could tell, we have many questions. We're all 
on the same page, I think, clearly on both sides of the aisle 
here about supporting a strong exploration program and the need 
to ensure that we do it right and sustainably. So I'm going to 
start with a few questions, Mr. Bowersox, for you. And I'm 
going to ask you a series of questions, and we'll go through 
them pretty quickly and then we'll come to some more.
    So the first question, when will NASA determine a new 
launch readiness date for EM-1, and what are the risks of 
continuing to delay announcement of a new launch date?
    Mr. Bowersox. Well, right after naming a permanent 
Associate Administrator, we expect within a month or two that 
person would have time to come up with the date that they can 
be ready to commit to Congress on.
    Now, I would like to assure you we've got a schedule we're 
working internally, but it's what we call a manage to schedule, 
right? It's a best-case schedule. The reason we want to give a 
new person a chance to take a look at what we're thinking about 
is there are some uncertainties in there that, before they 
commit to it, they should be able to exercise their judgment--
--
    Chairwoman Horn. OK.
    Mr. Bowersox [continuing]. On the date.
    Chairwoman Horn. So to sum it up, not until a new 
Administrator is named? OK.
    Mr. Bowersox. That's the short answer, yes.
    Chairwoman Horn. OK. Why haven't Orion and SLS contracts 
for vehicles beyond EM-2 been definitized? And when will they 
be definitized? What strategy are you using to incentivize 
contractor performance in these contracts?
    Mr. Bowersox. Well, it's critical to get those contracts in 
place for Artemis 3, so we're working that very hard. It's one 
of our top priorities right now. And we expect to have the 
Orion contract in place within a month or so, very, very soon, 
more like a year probably for the SLS contract.
    Chairwoman Horn. OK. Did you carry out--and this is, I 
think, a very important question in some of the realignments. 
Did you carry out an assessment of the costs, risk, and safety 
of using a more capable SLS Block 1B versus multiple commercial 
launches to stage a lunar landing to Mr. Cooke's point? Just a 
yes or no, was there an analysis conducted?
    Mr. Bowersox. Yes, we've considered that.
    Chairwoman Horn. OK. So in the analysis, the Committee 
would very much like to see that analysis, and if you can 
provide that to us, please. So when do you plan----
    Mr. Bowersox. And I should correct--I mean we have 
considered it. I have not seen an analysis----
    Chairwoman Horn. OK.
    Mr. Bowersox [continuing]. But I'll see what we've got and 
tell you that.
    Chairwoman Horn. OK. So it has been considered, but there 
may not be a full written analysis of that----
    Mr. Bowersox. Yes, what we're most worried about is having 
enough cores to do that in time for a 2024 landing.
    Chairwoman Horn. OK.
    Mr. Bowersox. You know, with our production issues.
    Chairwoman Horn. OK. And when do you plan to use the EUS on 
an SLS launch, and what is NASA doing to implement that plan?
    Mr. Bowersox. Right now, we're looking at where we can use 
EUS. At this point, the earliest we would probably be able to 
use it is around Artemis 4, but we need to work that internally 
with our budget estimates. Right now, our current plan would be 
to go ahead without the EUS. That's what's in our official 
President's budget submission. However, Congress has been very 
helpful in providing funding for EUS. And so the earliest we 
would be likely to use it is Artemis 4.
    Chairwoman Horn. OK. I think any information that you have 
we'd like to see an analysis of the decision metrics there, so 
if you can provide that to us as soon as possible, that would 
be great.
    Mr. Bowersox. All right. And just to restate what our 
Administrator has said, we want EUS. It will be very helpful in 
our architecture, and we understand that.
    Chairwoman Horn. OK. Ms. Chaplain, you raised some very 
important points, and in my opening statement noted that we 
have seen some serious challenges in the SLS, Orion, and EGS 
during the development. And while we need to right the ship and 
fix current problems, we're also working on a NASA 
reauthorization. And so looking forward, I have a couple of 
questions for you. Could you summarize--I'll just give you a 
few and let you answer it once because I think these go 
together. Could you summarize some of the lessons learned that 
can be applied to future programs, and what specifically can 
this Committee and Congress do to ensure that these actions are 
taken? Finally, is it a matter of oversight, or are there areas 
that need to be addressed in the authorization to set up the 
programs for success as we address the issues that we've 
experienced moving forward?
    Ms. Chaplain. I think much of what has been done is not 
really--that should be done is not something you can legislate. 
They're really just basic good practices that NASA should be 
following. And I think at various times they've been called on 
to do that.
    When we look at the problems from like a higher-level 
perspective, we see a couple things that I'll go through, and I 
think it'll help you see where we need to target things going 
forward. One thing is they've made it very difficult to 
understand where money is going in those programs and what's 
being spent in the future. There has been some language 
congressionally out there to make sure that happens, to make 
sure we get the right baselines for costly elements of the 
programs, as well as future flights and as well as cost 
estimates for missions and to just have better tracking of 
costs within the program over time.
    Also, the programs have not always used the management 
tools that they have available to them that talk about things 
like award fees, really exercising them to not reward good 
performance, incentivize performance when it is good. That's 
what I meant.
    And then other kinds of tools like even standing review 
boards and independent assessments, they tend to give NASA a 
range of estimates, high, low, where things could go. NASA 
tends to take the low estimates. And that's--sort of goes to 
the overall theme of optimistic estimating and hoping 
everything's going to go right.
    And then again as I mentioned earlier, just following best 
practices when you develop cost estimates, when you lay the 
groundwork for programs, there's a lot that could be done 
there. There were efforts to adopt some very good practices 
like joint confidence level for these programs, but I think 
even in doing that there's things within those methodologies 
that could be improved.
    Chairwoman Horn. Thank you very much. Mr. Cooke, I'll have 
questions for you later, but I want to make sure everybody gets 
a chance, so, Mr. Babin, you're recognized.
    Mr. Babin. Yes, ma'am. Thank you very much.
    Mr. Cooke, your testimony references numerous studies that 
all conclude that the optimal lunar exploration mission 
architecture features two SLS launches since it decreases the 
number of launches necessary, thereby increasing mission 
success. And it allows for a wider lander with a lower center 
of gravity that is more stable when landing.
    NASA, however, is pursuing a plan that requires multiple 
launches on less capable rockets, more in-space docking, and a 
narrower lander. Based on decades of trade studies, does this 
make any sense to you? And is NASA relying on commercial launch 
vehicles because they don't believe that they will have two 
SLSs available by 2024?
    Mr. Cooke. My short answer is, no, it doesn't make sense to 
me. When you divide up your lander, there's an ascent vehicle 
and a descent vehicle. It even has to be fueled at the Gateway 
by launching on smaller vehicles. It constrains the payload 
diameter as well, so it limits the size of the lander. These 
things, for one, it can cause the lander to get taller, which 
then makes it less stable on the slope on a lunar surface.
    Mr. Babin. Right.
    Mr. Cooke. But it also limits what you can fly on it. Right 
now, the requirements look to be based entirely on an ascent 
vehicle for the crew. However, if you do the work to lay out 
the long-term architecture and what you're actually going to 
achieve on the Moon, it'll have to transport other things like 
a habitat potentially, rovers. And without those requirements 
when ending up with a small lander, you may not be able to 
build the capability that you need to be sustainable.
    Mr. Babin. OK. Thank you. And also, Mr. Cooke, the Orion 
Crew Vehicle and the European Service Module are less capable 
than the Apollo Command Module and Service Module because the 
European Service Module (ESM) is based on the Automated 
Transfer Vehicle that provided cargo to the ISS. This led NASA 
to propose a transfer vehicle in their concept of operations 
for a Moon landing. The NASA Aerospace Safety Advisory Panel 
recently stated that the ESM propulsion system continues to 
raise issues that affect both safety and schedule. Why doesn't 
NASA just ensure that the European Service Module meets the 
requirement of enabling a crewed lunar landing rather than 
starting an entirely new development?
    Mr. Cooke. The Service Module is obviously key to the 
architecture in terms of getting the crew where they need to 
go. The distribution of where propulsion goes and the fuel 
needs to be worked out. I believe NASA needs to really own the 
lunar landing and get the architecture together to do it most 
effectively.
    Mr. Babin. OK. And then, Mr. Bowersox, what does NASA need 
to do regarding spacesuits to enable a crewed landing in 2024? 
Does NASA plan to change the plans that they laid out in the 
spacesuit plan delivered to Congress a few years ago?
    Mr. Bowersox. Well, our current plan is to have the suit 
developed at the Johnson Space Center. There's been a lot of 
work that's been going on there for years and years since I was 
an astronaut. And we're going to build on that work to have JSC 
manage a program and develop a lunar suit for us.
    Mr. Babin. OK. Great. And then one other question for you. 
Recently, we heard of potential issues with the delivery of the 
Orion spacecraft to Plum Brook for testing. Apparently, the 
margins for the Super Guppy, the airplane that is planned to 
transport the spacecraft, could be insufficient to handle a 
potential emergency landing based on the weight of Orion and 
the container that it's shipped in. What is the status of this 
review, and will Orion make it to Plum Brook on schedule? And 
will NASA have to use the Pegasus barge and go through the St. 
Lawrence Seaway to be potentially iced in over the wintertime? 
And if so, would this impact the use of the Pegasus barge for 
transporting the core stage to Stennis this winter? I know 
that's several questions wrapped up, but if you could answer 
those. I'm running out of time.
    Mr. Bowersox. So, yes, you sort of hit all the issues on 
everything we're working----
    Mr. Babin. Absolutely.
    Mr. Bowersox [continuing]. But the bottom line is the 
latest news is we're very hopeful that the Guppy is going to 
work out. Our most likely backup options would be other 
aircraft options, for example, the Beluga aircraft that they 
have over in Europe right now would require some extra time, 
but we still think we'd be ready for the launch of Artemis 1 
that we're sort of forecasting.
    Mr. Babin. OK. So we don't have to deal with ice, and iced 
in the St. Lawrence Seaway, huh?
    Mr. Bowersox. No, sir. We were all worried about that, too, 
but we think we're----
    Mr. Babin. OK.
    Mr. Bowersox [continuing]. Going to be OK.
    Mr. Babin. All right. Thank you. And I yield back.
    Chairwoman Horn. Thank you, Mr. Babin. The Chair recognizes 
Mr. Crist for 5 minutes.
    Mr. Crist. Thank you, Madam Chair. Thank you to our 
panelists for being with us today.
    Mr. Bowersox, I'm pleased that NASA has moved forward with 
the award of the Mobile Launcher 2 contract this summer. Can 
you provide an update on the status of the second Mobile 
Launcher and discuss how this additional capability at the 
Kennedy Space Center will support the goal of returning humans 
to the surface of the Moon by 2024?
    Mr. Bowersox. Yes, sir. We expect to start construction on 
the second Mobile Launcher late this year, and that program is 
going pretty well. There's lots of lessons learned from the 
construction of the first Mobile Launcher that we're building 
on, and that's going to enable us to use an SLS Block 1B or 
Block 2 later with an Exploration Upper Stage.
    Mr. Crist. Mr. Cooke, do you have anything to add to that?
    Mr. Cooke. I fully support the--moving ahead on the ML-2. 
It's important for where--what we need to get to the larger SLS 
vehicle and will--it will be important for our lunar 
exploration.
    Mr. Crist. Thank you, sir. Mr. Bowersox, can you discuss 
the NASA plan for Orion and the Space Launch System, also known 
as SLS, after returning humans to the surface of the Moon for 
2024?
    Mr. Bowersox. The first three missions we expect to launch 
on roughly 2-year centers, and then after that, we'd like to go 
to one launch every year for the SLS with an Orion, and that 
would be our cadence for all the lunar missions.
    Mr. Crist. Specifically, will SLS be used to transport 
segments of the lunar Gateway or lunar orbit?
    Mr. Bowersox. If we get EUS in future budgets, we would be 
able to take some elements of Gateway or potentially logistics 
elements out to lunar orbit with the Orion vehicle.
    Mr. Crist. Can you discuss how SLS and Orion will be 
modified and utilized for travel to Mars?
    Mr. Bowersox. Well, one of the things I like about our 
current plan is that we wouldn't need to do much modification 
for SLS or Orion to go to Mars. We'd like to have the cargo 
version of SLS ready for Mars so we can transport the large 
diameter heat shields we think will be required to enter Mars, 
but that's one of the good things about our architecture is 
it's not just the Moon, it's also Mars, it's both.
    Mr. Crist. Does NASA have a plan or a timeframe for SLS and 
Orion to get humans to Mars? Or, if not, is such a plan in 
development?
    Mr. Bowersox. That plan is in development, and we're--and 
very detailed discussions inside the agency.
    Mr. Crist. Again, Mr. Cooke, would you like to also comment 
on the future of SLS and Orion?
    Mr. Cooke. The future of SLS and Orion is based on both 
lunar and Mars exploration. When we did the design back in--
actually a final design--for getting to the current concept of 
SLS was in 2011. It was--they were designed for Moon and Mars 
missions. That was the criteria.
    Mr. Crist. Mr. Bowersox, I've always been fascinated by the 
potential for life to exist elsewhere in our universe. I was 
intrigued by the news last week that water vapor was found in 
the atmosphere of an Earthlike exoplanet. Can you discuss how 
SLS and Orion might help contribute to future exploration of 
the universe and a search for life, whether it be launching 
larger, more powerful telescopes or through future deep space 
exploration even beyond Mars?
    Mr. Bowersox. Well, to me that's one of the most exciting 
things about having the capability like the Space Launch System 
is we don't know exactly what we'll do with it yet. But as we 
develop it, as we generate the ability to make cores more 
predictably, I think we'll have lots of opportunities to do the 
types of things you're talking about.
    Mr. Crist. Great. Mr. Cooke, in your testimony, you write 
that, quote, ``Exploration capabilities should be made 
available for commercial and other interests to further the 
utilization of space.'' I assume that also includes academic 
interests, perhaps to support the search for life elsewhere. 
Could you elaborate on your point?
    Mr. Cooke. The value in having a vehicle like SLS fully 
developed with the lift capability and the--and not just lift 
capability but what's important is the volume of payloads and 
the diameter that is allowed on the top of the core stage. This 
allows for larger-aperture telescopes. For instance, the James 
Webb Space Telescope which I'm looking forward to see fly, has 
to be deployed. You can get to the larger, simpler spacecraft 
with that capability. And the lift capability can allow you to 
actually get places quicker with upper stages that will 
accelerate and get to outer planets and--and so it provides a 
lot of opportunity that's fully yet to be worked out.
    Mr. Crist. Great. Thank you. Madam Chair, I yield back. 
Thank you.
    Chairwoman Horn. Thank you, Mr. Crist. The Chair recognizes 
Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair.
    Mr. Bowersox, let's just cut to the chase. If NASA does not 
receive the additional $1.6 billion for Fiscal Year 2020 or 
some anomaly in the continuing resolution to fund things, will 
it be able to achieve a crewed lunar landing in 2024? How 
important is this money?
    Mr. Bowersox. The amendment and the ability to spend that 
money if we have a continuing resolution is critical to getting 
to the lunar surface in 2024. We need it to start our human 
landing system program.
    Mr. Lucas. So basically it blows a big hole in the program 
if we are not properly funding you?
    Mr. Bowersox. Well, we wouldn't give----
    Mr. Lucas. It makes it more complicated, how about that?
    Mr. Bowersox. It makes it much, much harder, yes, sir.
    Mr. Lucas. Mr. Cooke, let's go back to, again, the 20,000-
foot view, as we would say in western Oklahoma. How does 
exploration of the Moon enable us to explore Mars?
    Mr. Cooke. The exploration of the Moon does help in a lot 
of ways. In terms of getting to critical operations on another 
planetary body that we haven't done in 50 years, there are 
hostile environments that have to be encountered at both places 
that you have to learn to design for. Many of the systems that 
will be designed will involve two Mars systems if not be used 
as-is. But in going to Mars the trips are so much longer that 
reliability is----
    Mr. Lucas. Days versus months and years?
    Mr. Cooke. Yes, 500- to 1,000-day missions. Everything has 
to be very reliable because you're sending a crew, and you want 
to return them safely. So getting to reliable systems can be 
proved out in an operational program like the lunar program. 
You tend to spend the effort on the technology you need in an 
ongoing program. A lot of times, technologies programs can get 
defunded or money taken to do other things. But if you're on a 
direct path and have clear goals, then you know that you have 
to get it done. So it's a forcing function, too.
    Mr. Lucas. Mr. Bowersox, let's touch on this again. What is 
the earliest that Artemis 1 could be launched? And what's the 
limiting factor?
    Mr. Bowersox. The earliest that we could launch Artemis 1 
at this point is roughly at the end of next year. We've got to 
get it out of the factory, which we think will happen at the 
end of this year. We have at best 5 to 6 months for testing and 
another 5 to 6 months of processing at the Cape before we could 
launch. And then if you start throwing in weather delays, any 
potential technical problems, anything that we have to fix 
after we fire the engines, that adds on extra time and it's 
just hard to say exactly what will happen until we get there.
    Mr. Lucas. But at this stage you have a certain amount of 
time built in the concept of going at the end of 2020, correct?
    Mr. Bowersox. Yes, sir. We've got some likely delays that 
are based on previous programs and previous performance, but 
there's less judgement involved in interpreting those numbers.
    Mr. Lucas. Mr. Cooke, the Aerospace Safety Advisory Panel 
often cites the launch rate of SLS as a concern. What's the 
maximum number of times SLS could launch in a year? And what 
would those limiting factors be when we're up and going?
    Mr. Cooke. My understanding is that the current rate is 
going to be two a year. I don't know the limit on what they 
are--Ken can probably speak to that. But I'm concerned about 
the rate because when we start going to Mars, you're going to 
have to go more than twice a year to get assembled the vehicles 
that you have. It will take on the order of six or more SLS 
launches at full capability to send a crew to Mars. So they 
can't wait for however many years that is, so it's important to 
get the rate up.
    Mr. Lucas. Speaking of that, Mr. Bowersox, Henry Ford 
demonstrated a century ago that if you move enough product down 
the assembly line, costs will come down, efficiencies will 
increase. So after the initial development of SLS and Orion, 
NASA will transition to operation contracts for the 
procurement. What cost reductions does NASA expect to see in 
that next generation of contracts?
    Mr. Bowersox. Well, we're working those contracts now, so I 
don't really want to get into specifics, but we expect to see 
some reduction and some improvement in the rate with which we 
can produce the cores at the Michoud Assembly Facility.
    Mr. Lucas. And we'll need those savings to achieve that 
greater production rate.
    With that, I yield back, Madam Chair.
    Chairwoman Horn. Thank you, Mr. Lucas. The Chair recognizes 
Ms. Hill.
    Ms. Hill. Thank you so much, Madam Chair. I have a couple 
questions.
    Mr. Bowersox, what is the current status of the prime 
contracts for the SLS core stages and Orion crew capsules 
beyond Artemis 2?
    Mr. Bowersox. The contracts are in negotiation. We're 
closer on getting the actual contracts signed for Orion for 
Artemis 3 and beyond. We expect that fairly soon and expect on 
the order of a year before we'll see the core stage contract 
award.
    Now, in the meantime, in order to purchase long lead items 
so we don't have delays, we work on definitized contracts 
actions, letter contracts to buy long lead parts. And there's 
some risk in doing that----
    Ms. Hill. Yes.
    Mr. Bowersox [continuing]. But that's what we're doing.
    Ms. Hill. Do you think NASA will be transitioning those 
procurements to fixed-price contracts from cost-plus contracts?
    Mr. Bowersox. Well, what we've been trying to do is for 
each of the contracts to transition from cost-plus to fixed-
price. Sometimes it happens during the contract.
    Ms. Hill. OK. And, Ms. Chaplain and Mr. Cooke, can you each 
comment on NASA's decisions on when to use cost-plus versus 
fixed-price contracts for SLS and Orion procurement?
    Ms. Chaplain. I would say generally for space programs, 
when you transition to the phase where you are producing higher 
numbers of whatever spacecraft there is, that's your 
opportunity to really get into the fixed-price contracting. 
When you're in the earlier stages, there's a lot of 
uncertainties about what you're doing. The government does need 
to take on more risk at those stages unless they have plenty of 
contractors willing to sign up for prices that might not be 
well understood.
    Mr. Cooke. I totally agree with Ms. Chaplain.
    Ms. Hill. Great.
    Mr. Cooke. One aspect of this, though, is in getting a 
fixed price say, on the SLS is it's not just the core stage. 
It's boosters, it's engines. And NASA is currently the 
integrator. If you want to get to a fixed price on a launch 
vehicle, it would seem to me that it would be better to have 
that combined under a prime contract that then has control--
where the owner of the prime contract has control of all the 
processes and can--and actually bring some of these 
efficiencies to bear.
    Ms. Hill. That makes sense. And then, Mr. Bowersox, the GAO 
reported in its assessment in June 2019 of the human 
exploration systems programs that because both SLS and Orion 
cost and schedule have exceeded the contract values, NASA plans 
to renegotiate the Boeing contract for the first two SLS core 
stages and the Exploration Upper Stage and modify the cost and 
period-of-performance aspects of the contract with Lockheed 
Martin for the first Orion crew capsules. So can you talk about 
the current status of those updates? I know that you said that 
things are underway.
    Mr. Bowersox. It's in process, and we'll talk about all 
that when we have a named----
    Ms. Hill. OK.
    Mr. Bowersox [continuing]. Associate Administrator.
    Ms. Hill. Great. And can you just say that is NASA 
modifying the award fee and incentive structure in the 
renegotiated contracts?
    Mr. Bowersox. One of the things we're looking at for 
everything we're doing is how we're handling incentives. We 
want to incentivize the performance that we desire from our 
contractors. And, I mean, I think we can all agree that we're 
not seeing the performance we want, and so we should be looking 
at those.
    Ms. Hill. Great. And in that same assessment, it showed 
that the integration and testing phase of development often 
reveals unforeseen challenges leading to cost growth and 
schedule delays. Anything you want to add to why that is?
    Mr. Bowersox. Well, the first time you try anything, it's 
harder. And we are seeing a lot of improvements the second time 
we do things, the second Orion build, the second core stage 
build. There's great progress there, and so we have a lot of--
we have a great chance to do better on three, four, five in 
each of the production lines.
    Ms. Hill. So given those--you know, how it tends to be 
unforeseen things that come up, how much cost and schedule 
margin or reserve would you recommend for SLS and Orion heading 
into this integration and testing phase?
    Mr. Bowersox. Well, at this point we'll take as much extra 
reserve as we can get, right? But we don't think we need to ask 
for a lot more than what we've put in the budget at this point. 
It's--and in the next phase we should be more predictable. It's 
the new programs where we really want to be thinking about 
reserves----
    Ms. Hill. Excellent.
    Mr. Bowersox [continuing]. So that we have flexibility, 
yes, ma'am.
    Ms. Hill. And, Ms. Chaplain, what are the top risks to cost 
and schedule that you see for SLS and Orion integration and 
testing?
    Ms. Chaplain. So I still see a lot of risk ahead. It will 
be a different type of risk because you're putting things 
together, shaking them up and down, testing them, firing them. 
And all those activities tend to reveal problems that need to 
be fixed that could cause a bit of rework. You might have to go 
back into vehicles, reopen them, and adjust components. If you 
look at the James Webb program, we saw substantial delays, 
substantial problems come up in integration and testing. They 
might be focused on a very small screw, a valve, things like 
that, but they can cause a lot of delay.
    Ms. Hill. Great. Thank you all so much. I yield back.
    Chairwoman Horn. Thank you very much. The Chair recognizes 
Mr. Brooks.
    Mr. Brooks. Thank you. I've got an article in front of me 
entitled, ``Getting Back to the Moon Requires Speed and 
Simplicity,'' and it purports to be by Doug Cooke, opinion 
contributor, and it goes on to say Doug Cooke is a former NASA 
Associate Administrator. I just want to make sure that's the 
same Doug Cooke who is before us today.
    Mr. Cooke. Yes, sir.
    Mr. Brooks. All right. Let me quote from it in three 
different places. Quote, ``Apparently under pressure from 
commercial launch providers who need additional launches to 
fill their manifest, NASA is being directed to break the lunar 
lander into multiple pieces so that these can fit on less 
powerful commercial launchers, increasing risk and constraining 
the architecture,'' end quote.
    Second quote, ``NASA's current approach requires eight new 
developments''--interjection by me, versus three with Apollo, 
eight to three--resuming the quote, ``eight launches versus one 
with Apollo and approximately 17 mission-critical operations 
versus seven with Apollo to achieve the Artemis goals by 
2024,'' end quote.
    And then finally, quote, ``If you assume each event has a 
98 percent probability of success, the likelihood of mission 
success is 80 percent for this Apollo-like approach in 
comparison. The likelihood of mission success for NASA's 
current approach is 51 percent, not taking into account the 
launch vehicle maturity risk. NASA can significantly increase 
speed, simplicity, cost, and probability of mission success by 
deferring Gateway, leveraging SLS, and reducing critical 
mission operations,'' end quote.
    Now, if I were an astronaut, I'd be concerned about these 
kinds of comments from a former NASA Associate Administrator. 
And they appear to suggest that profit motive, i.e., the desire 
of some individuals for personal gain, may be driving NASA 
decisionmaking at much greater risk to our astronauts.
    So I'd like to have, Mr. Cooke, if you would expound on 
that leaving enough time for Bowersox to reply.
    Mr. Cooke. I think that the pressure to get to commercial 
capabilities and drive that objective is causing us to do 
things that are higher risk. And going to this many 
developments from scratch, by the way, starting now, trying to 
get to 2024, with that many critical mission events, the 
probabilities are that. And if you assume .98--and .98 is 
arbitrary, and some of the numbers would be higher, some would 
be lower--but it's illustrative of the complexity that's been 
bought into versus what could be done with a more simple 
approach.
    Mr. Brooks. Mr. Bowersox, could you please give us your 
view on these comments?
    Mr. Bowersox. Yes, sir. First, nobody's driving us. I mean, 
we actually came to these conclusions on our own. And a big 
driver is to have flexibility. We want to have multiple 
options. We don't want to rely just on one system. We'd like to 
have other systems. And what we're trying to build on is some 
of the success we've experienced in having flexibility with our 
commercial cargo vehicles for station. Having multiple 
providers, multiple options there has been really useful. When 
one has a problem, we can go to the other provider. And so we 
want to take advantage of some of that learning and move it 
into this other program to help us get to the Moon and on to 
Mars.
    Mr. Brooks. Well, if I could interject for a moment, do you 
concur with Mr. Cooke's belief that the Apollo method of going 
to the Moon was simpler and safer versus the current Artemis 
approach of going to the Moon?
    Mr. Bowersox. What I would say about the Apollo approach it 
was--is that it was simpler. I wouldn't say that it was 
necessarily safer. That will--you know, we'll know that after 
we're done. But I think that our current approach has a lot of 
potential to be actually safer than Apollo. Even because of the 
flexibility and complexity, we can actually increase some of 
the safety aspects.
    Mr. Brooks. Mr. Cooke, in the time that I have remaining, 
do you have any additional comments you would like to give on 
this subject?
    Mr. Cooke. Just that it gets back to probabilities in the 
end and critical events, critical launches. And it's--the more 
that you have, the higher the risk. We did succeed with Space 
Station, which was about 40 Shuttle launches to build. Had we 
lost a payload during that time, we didn't have backups. We 
didn't have the margin and budget to have backup hardware. So 
if we had lost one of those payloads, we would have been 
scrambling. So it's better to keep it simple. It's hard enough 
as it is.
    If you watch the documentaries from Apollo 11 and saw the 
team in the control room who I grew up under at Johnson Space 
Center, you saw the--their anticipation of every burn, every 
docking, every possible critical operation. You saw their 
anxiety leading up to that point and the relief when it was 
done. So the fewer that you have like that, the better you are, 
I think, and less risk.
    Mr. Brooks. Thank you, Madam Chair.
    Chairwoman Horn. Thank you very much. The Chair recognizes 
Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Madam Chair. And I appreciate 
everybody's testimony today. Thank you very much for being 
here.
    Ms. Chaplain knows where I'm going with my line of 
questioning, and it really is pretty simple. My goal is that we 
get to Mars by 2033. And there are a whole variety of things 
that can happen, different ways to do it, and I'm not a 
technician, I'm not a scientist, I'm not an engineer, and I 
rely particularly on you two gentlemen and all the people that 
are working on this to figure out the best way to do it. And if 
going to the Moon first is a great stepping stone to ultimately 
get to Mars, that's what I want to do. Ms. Chaplain knows my 
job is to help find the money to get this done, which is not 
that easy but obviously is a key component to all of this.
    So my question to all three of you is, have we lost sight 
of--in this process of Artemis and getting to the Moon, have we 
lost sight of what I hope is the ultimate goal of getting our 
astronauts on Mars 2033? Mr. Bowersox.
    Mr. Bowersox. Sir, first, thanks for showing us the bumper 
sticker.
    Mr. Perlmutter. Yes. I'll put it right there.
    Mr. Bowersox. I love to see your excitement, and I share 
it. I want you to know that. And I want to assure you that the 
Artemis program is part of our Moon-to-Mars effort. And we have 
worked really hard to keep the horizon goal of Mars in sight in 
all of our integrated planning.
    Mr. Perlmutter. Ms. Chaplain, since you get to kind of 
watch this from the money side.
    Ms. Chaplain. Right. It would have been a challenge even 
without this focus on Moon right now to get to Mars if that's 
all we focused on. It's going to be a big challenge to get to 
the Moon again by 2024. That leaves you 9 years left to get to 
Mars. I think it's still very challenging even if you had, as 
you desire, you know, unconstrained amounts of funding to get 
there. That would help----
    Mr. Perlmutter. That's a nice way to put it, thank you.
    Ms. Chaplain. Yes, but it's still going to be a challenge. 
It's worth trying, but it's a challenge.
    Mr. Perlmutter. No, and I think you and I have had this 
conversation. I mean, this is a big challenge. This is a huge 
task. This is difficult, you know, to say the least. But there 
are ways to do it, and I think we have the capability. And, as 
you and I have talked about, this is going to be--and my hope 
is it's NASA-driven, it's public-private, and it's 
international in scope so that there are others assisting in 
partnership with us getting to Mars. But my job is to work with 
you and our appropriators to make sure the funding is available 
as the technology develops and the plans develop.
    Mr. Cooke, please.
    Mr. Cooke. Yes. I am fully on board with getting to Mars. 
And I think that, for the reasons I stated earlier, the Moon is 
an important step, and it helps force the technologies and the 
operational capabilities to do that. In fact, I talk about 
deferring the Gateway for the first lunar lander, but the 
Gateway, in my view, could be the prototype for a Mars transit 
vehicle. And if you did it that way, tested out those 
technologies like life-support systems, the power and 
propulsion element that's a part of it now as high-efficiency 
propulsion for in space, those kind of things, if they're 
tested out right and thought out and not hurried, they can end 
up being prototypes for the actual in-flight mission to Mars. 
So I think it fits together, but it takes putting together a 
long-term plan so that you see where each of these aspects fits 
in the big scheme of things.
    Mr. Perlmutter. OK. Thank you all. I yield back to the 
Chair.
    Chairwoman Horn. Thank you very much, Mr. Perlmutter. I 
realize I should have said I recognize Mr. Perlmutter and his 
bumper sticker. We knew that was coming.
    The Chair recognizes Mr. Posey.
    Mr. Posey. Thank you, Madam Chair, for holding this 
hearing, and I thank the witnesses for coming and sharing with 
us today.
    Previous IG and GAO reports have indicated there have been 
some issues with the Exploration Ground Systems software. I 
wondered if you could update me on the status of that. Mr. 
Bowersox first.
    Mr. Bowersox. The latest I'm hearing is that we're getting 
through those issues, and we should be on track to meet 
whatever earliest Artemis 1 date we can get. When we can get 
the stage there, the ground system is going to be ready is what 
I'm hearing.
    Mr. Posey. Anyone else want to comment?
    Ms. Chaplain. I'd say just generally the delays being 
experienced on the hardware side have given the software side 
more time to work out their issues. The hardest part is always 
on the ground system side that is at Kennedy because they have 
to respond to any changing requirements from Orion and SLS. So 
to the extent that there's still some changes going on, there 
will always be some changes going on on the software side.
    Mr. Posey. OK. Thank you. Following up on a question Mr. 
Crist previously asked about the second Mobile Launch Platform. 
What why did it take so long to issue a contract for that?
    Mr. Bowersox. I'll get back to you on details on that one, 
sir. I'm not exactly sure. That was a little before my time. 
But I know we're underway right now and planning to start 
construction at the end of the year.
    Mr. Posey. Has the delay of construction prevented SLS from 
complying with the NASA authorization requirements to reach a 
130-ton launch capacity?
    Mr. Bowersox. I wouldn't say that delay is going to 
interfere with reaching that particular goal. There's probably 
other complexities that might delay us from getting to that 
goal. But it is still our eventual goal at around Artemis 9 or 
10.
    Mr. Posey. OK. How confident are you that we'll have boots 
on the Moon by 2024?
    Mr. Bowersox. How confident? I wouldn't bet my oldest 
child's upcoming birthday present or anything like that. But 
what I'll tell you is, having that aggressive goal is really 
good for us. It is helping us focus. It's helping us keep track 
of what's important inside our agency. And so we're working 
toward it as hard as we can. And I think it's healthy for our 
whole organization.
    Mr. Posey. Do you think we'll make it?
    Mr. Bowersox. Well, we're going to do our best to make it, 
but, like I said, what's important is that we launch when we're 
ready, that we have a successful mission when it launches. And 
I'm not going to sit here and tell you that just arbitrarily 
we're going to make it. We have to have a lot of things come 
together to make it happen. We have to get our funding, we have 
to balance our resources with our requirements, and then we've 
got to execute it really well. And so there's a lot of risk to 
making the date, but we want to try to do it.
    Mr. Posey. OK. Mr. Cooke, what do you think? Where are you 
placing your bets?
    Mr. Cooke. I would agree with Ken on what he said. I think 
it's important to have the urgency in the program to get things 
done. These programs require constant problem-solving, and 
there is a way to go to get to the Moon based on the things 
that have to be done, but the sense of urgency is important in 
programs so it's not business as usual. You're working off 
problems. But I support getting to the Moon as soon as 
possible. I don't have insight into the exact program schedules 
and details, so I couldn't honestly say. But I support getting 
there as quickly as possible.
    Mr. Posey. OK. Ms. Chaplain?
    Ms. Chaplain. Yes, I also agree that having aspirational 
goals is good. It's still a lot of risk in getting there. 
You're having to manage a lot of programs that need a lot of 
new development within a short period of time. But to manage 
things like that, there are some things you can do like having 
a very detailed architecture to help you manage all that 
overlap that you're going to be experiencing; having good 
configuration management so when changes are introduced, people 
could really weigh the cost of those changes and the effects 
they have and understand the implications that they have; 
having good visibility in the progress and being very open and 
transparent is very necessary so that you guys understand 
what's ahead and maybe what more resources are needed; and then 
having very good communication lines within the agency and with 
contractors is important.
    Mr. Posey. OK. What do you think the odds are commercial 
will beat you? Mr. Bowersox?
    Mr. Bowersox. The odds that commercial will beat us to the 
Moon?
    Mr. Posey. Yes.
    Mr. Bowersox. I'd still bet on us.
    Mr. Posey. All right.
    Mr. Bowersox. But they might be part of our program.
    Mr. Posey. Mr. Cooke?
    Mr. Cooke. I agree with that answer. I believe that the 
program that was laid out for going to the Moon is the best 
chance of getting there. And to do it as simply as possible 
will get us there the quickest. There is a role for commercial 
in this. I don't know that anybody can beat the government 
program because of its capabilities.
    Mr. Posey. OK. I see my time is expired. I yield back. 
Thank you.
    Chairwoman Horn. Thank you very much. The Chair recognizes 
Mr. Olson, although she has to wonder if he was so scared of OU 
beating Texas that drove him to retirement in the intervening 
time.
    Mr. Olson. I thank the Chair. And I have to say 
congratulations, my dear friend. Your Sooners, 49; our Houston 
Cougars, 31. Great victory, great, great victory, but I'd like 
to point out that never, ever would've happened without a 
native Texan, your quarterback, from Brian Babin's district 
Jalen Hurts. And as my dear friend knows, there's this big game 
called the Red River Rivalry. Hook 'em horns. Beat Oklahoma.
    Chairwoman Horn. You notice which school he chose?
    Mr. Olson. He made some mistakes with Alabama first.
    Thank you, Mr. Bowersox, for talking about the focus at 
NASA Johnson Space Center. I moved there in the summer of 1972. 
Apollo 16 had come home. Apollo 17, its last mission to fly 
that December. I saw the excitement, the focus, and then we hit 
the 1970s, just nothing of importance, three Skylab missions, 
Apollo-Soyuz, just nothing, kind of this lack of focus, delays, 
flying a Space Shuttle, building a Space Station, all the focus 
again constantly just is wiped out, no focus. Then we're going 
back to the Moon. More focus. And so, as you guys said, I think 
that's why mission in force.
    My concern is we built the Saturn V rocket for one mission, 
to take three people in a craft that can land on the Moon to 
the Moon and bring them back. The SLS was made out of a concept 
of going back to deep space without a mission per se at the 
time to take it there.
    So my question is, have there been challenges building that 
rocket to the ever-changing Mars, Moon, whatever missions? Is 
it on track, a challenge we can help out with? Because I know 
it's tough. Apollo was very clear: Moon, three men come back. 
This one, Mars, Moon, deep space. Any concerns there?
    Mr. Bowersox. Well, you're pointing out a really good 
problem, and that is if you change your approach too often, 
then the whole process can become muddled and it can make it 
difficult to get where you're going. I think that's something 
that you guys can help us with is consistency of direction and 
help us maintain a consistent approach. And that will give us a 
much better likelihood of reaching our horizon goal of Mars 
with Moon to develop that capability.
    Mr. Olson. Thank you. And then I've got to focus on the 
Johnson Space Center because that's by my home. And this 
question is for both you again, Mr. Bowersox, and Mr. Cooke. 
What role should JSC have in astronaut training and mission 
operations for things like Gateway and the lunar lander? How do 
these lunar landers being taken care of, the same stringency as 
the Apollo missions? Because that expertise, while fading, is 
still by the Johnson Space Center. And now it looks like that 
may be going to Marshall. So my question is, are you satisfied? 
Can we help get this right? Because I think we have the 
expertise there with the landers, the Gateway.
    Mr. Bowersox. Well, first of all, you know, one of the 
things we try to do at the agency is balance out our activity 
across all of our centers so we can take advantage of the best 
at each center. And we thought that for the human landing 
system Marshall's specialty in propulsion would really help 
them in the management of that program since a big part of that 
whole landing system is the propulsion system.
    But I want to assure you that Johnson Space Center folks, 
especially the folks in flight operations, mission control, the 
astronauts will be heavily involved in developing all the crew 
interfaces that will be required to operate the vehicle. 
They're going to be critical working with Marshall to get that 
vehicle done so that it's successful.
    Mr. Olson. Mr. Cooke, any comment to that, sir?
    Mr. Cooke. I totally agree with what Ken is saying. I think 
the Center for Human Spaceflight Mission Operations is in 
Houston. It needs to keep focus on what's coming and prepare 
for it. I think the capabilities are still there.
    Mr. Olson. Final question to you, Mr. Bowersox. After we 
develop the SLS and Orion, NASA will transition to the 
contracts for operations to the private sector. Does this 
reduce costs, and how do you expect to see those reductions in 
contracts coming after that? Is it a viable program is my 
question.
    Mr. Bowersox. Well, part of the idea of increasing the 
amount of programs we do commercially is to get more fixed-
price contracts and get more competitive incentives to help 
reduce the cost. I mean, that's one of the things we're trying 
to do so that we can do more with the resources that we have. 
But we still have to prove that that's really going to occur, 
right? There's still some risk that it won't. But we're seeing 
positive signs with our commercial cargo providers.
    Mr. Olson. And that was my question, I just want to get the 
Chairwoman involved, a current endeavor we all support, as I'm 
sure you do, Mr. Bowersox. Go Navy, beat Army. I yield back.
    Mr. Bowersox. Thank you, sir.
    Chairwoman Horn. As you can tell, we don't have any fun on 
this Committee either.
    The Chair recognizes Mr. Waltz.
    Mr. Waltz. Thank you, Madam Chairwoman. And as a 23-year 
veteran, I have to say go Army, beat Navy. It's bipartisan.
    Mr. Bowersox and Mr. Cooke and Ms. Chaplain, I just have to 
take a step back. And I know you just had questions along these 
lines from Mr. Olson. I get asked by Floridians all the time 
where space is really in our DNA and folks follow this very 
closely down in my district in northeast Florida. I was asked 
by a constituent the other day why NASA can't go over to the 
Air and Space Museum and dust that lunar lander off, upgrade 
that thing, and get it back on the SLS that you're rebuilding 
and let's go?
    And we laugh, and that obviously skips over a lot of 
technical details. But it does get to the heart of the issue of 
why a lot of Americans and a lot of Floridians struggle to 
understand why it feels like we are inventing the wheel. We did 
this a long time ago with a lot less technology, and so as 
someone who's new to this Committee, I cringe when I hear it's 
going to take us another 6 years to develop a spacesuit or that 
we're talking decades to get back to where we were decades ago.
    So can you just kind of elevate a little bit because I 
think all of us in this Committee and all of us who care about 
space exploration are going to continue to make the case and 
have to make the case of not why this is worth the funding but 
why it is taking so much time and so much effort and so many 
delays and so much money frankly to get back to where we were.
    Mr. Bowersox. Well, first, that's a great question, and 
it's something that I think about every day. I think we've done 
it before, why is it so hard to do it again? And one of the 
things I see is we do things differently now, and often we want 
to take less risk. And that is one of the biggest challenges 
we've got. So I keep trying to get people to go back and look 
at what we actually did on the lunar module for Apollo, what 
did we do with the suits back then to remind----
    Mr. Waltz. From a process-wise----
    Mr. Bowersox. From a process----
    Mr. Waltz [continuing]. And a culture.
    Mr. Bowersox [continuing]. Point of view and a culture 
point of view to help remind us of the type of risks that we 
accepted in the past and to see if it's appropriate to inform 
our risk decisions in the future.
    Mr. Waltz. Yes, go ahead, Mr. Cooke, and----
    Mr. Cooke. It's really a complicated question and answer I 
think. There are a lot of facets to it. You're absolutely right 
it was done and a lot of those technologies were proven. Some 
of them have been abandoned for a long time. We found when we 
made the decision on the SLS propulsion that a great answer for 
propulsion on a launch vehicle from Earth is a big kerosene 
engine, which we had on Saturn V. But we haven't done a big 
kerosene engine since then. The Shuttle was LOX (liquid oxygen) 
hydrogen, and that drove us to go that direction. So we can 
walk away from capabilities that take some time to get back.
    Now, on the other hand, it shouldn't really take all that 
long to develop these things. I'm fully on board with getting 
them done as quickly as possible. And actually if you have some 
urgency, it keeps alternate ideas and new requirements from 
creeping in, which is part of the reason it does take longer 
because----
    Mr. Waltz. You're talking about the----
    Mr. Cooke [continuing]. Because----
    Mr. Waltz [continuing]. Great idea factor----
    Mr. Cooke. Yes, the great ideas.
    Mr. Waltz [continuing]. We call it in the Army.
    Mr. Cooke. Because we have more capability and technology, 
we want to fit them in somehow. I mean, that's typical for an 
engineer to make want to make things better. So we get trapped 
in that to some degree I think.
    Mr. Waltz. So just in the interest of time, what I really 
want to get to--and the Chairwoman mentioned it--what do you 
think NASA needs from the Congress and the Administration 
particularly as this Committee works toward a reauthorization 
to meet our goals of getting on the Moon? I know we have the 
broad agency announcement out for a commercial human landing 
center. We've discussed in the terms of--the Committee has 
discussed in the context of Artemis that, you know, NASA plans 
to award contracts to at least one provider that can safely 
deliver humans to the Moon annually beginning in 2024. What do 
we need? What do we need to get done this year, short-, medium-
term to hit that goal?
    Mr. Bowersox. Well, first, we appreciate your support, and 
we know we've got it. Consistent guidance and the resources. 
And for this year what we need is that budget amendment so we 
can get the landing systems awarded, get those contracts out 
because that's our long pole right now for getting to the lunar 
surface.
    Mr. Waltz. What would you say is the outside window of the 
date to get that contract actually awarded?
    Mr. Bowersox. Well, roughly the end of the year. And then, 
you know, it slips after we go past the end of the year is what 
I'd say.
    Mr. Waltz. OK. Thank you, Madam Chairwoman. I yield.
    Chairwoman Horn. Thank you, Mr. Waltz. The Chair recognizes 
Mr. Weber.
    Mr. Weber. Thank you, Madam Chair, for allowing me to sit 
in here and audit your class. I've learned more about football 
today than I thought I'd ever know.
    Mr. Cooke, I know you were at NASA for a few years during 
the Obama Administration when Lori Garver served as Deputy 
Administrator. I would remind the Committee that Ms. Garver is 
one of the architects of the policies that actually terminated 
the Space Shuttle and the follow-on Constellation program, 
which wound up resulting in our dependence on the Russians for 
access to the International Space Station since 2011, almost a 
decade now.
    Mr. Cooke, she has penned an op-ed, Ms. Garver has, on July 
18, 2019, about NASA's purview in her opinion. Have you read 
that article by chance?
    Mr. Cooke. I don't recall it right off----
    Mr. Weber. OK. Well, it's 2 days before the Apollo 11 
anniversary where she advocates actually for the termination of 
NASA's Human Exploration programs and return to the Moon, which 
she calls, quote, ``meaningless new goals,'' end quote, and 
said NASA should instead be turned into an agency to study 
global warming. And you've not read that article, Washington 
Post, July 18, 2019.
    Mr. Cooke. I did read it, yes.
    Mr. Weber. OK.
    Mr. Cooke. I didn't remember----
    Mr. Weber. It's becoming a bit more familiar, sounding a 
bit more familiar now.
    Based on your experience, you've been around a long time, 
45 years as I read your bio in the space program. Based on that 
experience, does it surprise you that she would be advocating 
against NASA's human spaceflight programs and to focus NASA 
basically on global warming research at the expense of the 
space program?
    Mr. Cooke. I don't want to get into differences, you know, 
of that nature necessarily, but it doesn't really surprise me. 
I obviously----
    Mr. Weber. That's fair enough.
    Mr. Cooke [continuing]. I feel differently obviously.
    Mr. Weber. Sure. And I appreciate that. Do you perceive any 
danger of that actually happening?
    Mr. Cooke. I honestly don't know. I think that you all in 
Congress have kept us on a course in human exploration for a 
long time and have been the conscience----
    Mr. Weber. Right.
    Mr. Cooke [continuing]. Of various ideas that have floated 
in and out. I know that while I was Associate Administrator and 
had the Constellation program----
    Mr. Weber. Right.
    Mr. Cooke [continuing]. At that time----
    Mr. Weber. I read that.
    Mr. Cooke [continuing]. And it was Congress that led us to 
where we are today with the Space Launch System and Orion.
    Mr. Weber. Absolutely. And let me follow up with that with 
Mr. Bowersox in exchange. Congressman Waltz said he cringes 
when he thinks that it takes 6 years to build the spacesuit, 
so, Mr. Bowersox, as NASA is preparing for a crewed lunar 
landing and a pressing need to upgrade the Extravehicular 
Mobility Unit, spacesuits used for ISS spacewalks, they need to 
be upgraded as well, how will NASA prioritize each of those 
efforts if they have a constrained budget environment?
    Mr. Bowersox. Well, the good thing is they sort of go 
together. The way we've got the programs set up now, the 
components we develop that can be used on the lunar surface can 
also be used at the ISS. And we would test them at the ISS 
first, at the Station first.
    Mr. Weber. But should it takes 6 years really?
    Mr. Bowersox. You know, there's a certain amount of time 
that things take in the aerospace world, and 4 to 6 years seems 
to be about what you get no matter how much money you throw at 
it. I would like it to be faster, and we're looking for ways to 
be faster.
    Mr. Weber. OK. Are there roadblocks along the way that you 
can identify, or is that just it, it takes 4 to 6 years and 
you're just resigned to it taking 4 to 6 years? Is there 
anything we can do to shorten that timeframe?
    Mr. Bowersox. I think you guys are giving us plenty of 
support, and we appreciate it. I think our folks at JSC have 
been working on it plenty of years now, and so with the right 
resources, I think we might be able to accelerate it some.
    Mr. Weber. OK. Do you know where we are currently in that 
timeline?
    Mr. Bowersox. Yes, sir. Right now, we'll have the suits 
developed and tested in time for an Artemis lunar landing and a 
test on ISS somewhere between now and then.
    Mr. Weber. So that's a long way of saying we're somewhere 
between now and then?
    Mr. Bowersox. Yes, so roughly 5-1/2 years from now.
    Mr. Weber. OK. So Mr. Posey posed the question about the 
130-ton capacity SLS. With all the equipment that we would have 
to move up for the Moon to be deposited up there and work, how 
many trips will that take, any idea?
    Mr. Bowersox. With our current plan it would take one 
launch of the SLS with the Orion, the crew would go up, but 
prior to that launch we'd position the stages for the lander, 
which could be somewhere between two and three, and then 
depending on what we need for additional supplies, we might 
have an additional mission, so somewhere between three and four 
small launches.
    Mr. Weber. Will that be the prototype to also go to Mars? 
And what's the gravity difference between Mars and the Moon? Do 
you know offhand?
    Mr. Bowersox. Mars is roughly 4/10 of the gravity on Earth. 
The Moon is roughly 1/6----
    Mr. Weber. Right.
    Mr. Bowersox [continuing]. The gravity of Earth. For Mars 
we would probably see similar type of launch rates but very 
likely with the bigger vehicles, with----
    Mr. Weber. Right.
    Mr. Bowersox [continuing]. Whatever large cargo vehicles 
are available.
    Mr. Weber. And I know I'm over time, but one last question. 
You spent 200-and-something days on ISS?
    Mr. Bowersox. Well, only about 150-some----
    Mr. Weber. Not that you were counting.
    Mr. Bowersox. Yes.
    Mr. Weber. So we're now----
    Mr. Bowersox. I would've liked to stay longer.
    Mr. Weber. So now we're talking about a trip to Mars that 
takes how many days?
    Mr. Bowersox. Well, in some of our estimates it could be 3 
years.
    Mr. Weber. OK. All right. Thank you, Madam Chair, for your 
indulgence, and I yield back.
    Chairwoman Horn. Thank you very much. I'm glad that you're 
here auditing the class. Always appreciated.
    Mr. Weber. Thank you.
    Chairwoman Horn. So I have a few more questions. We're 
going to go through one more round because I think that it's 
pretty clear based on the questions that we've seen on both 
sides that there's some outstanding issues, and I want to touch 
on a couple more things before we wrap this up.
    So starting off, I think there's some clarity--I share many 
of the concerns with my colleagues on both sides of the aisle 
about heavy lift and, Mr. Cooke, I read the same article and 
have many of the questions. So I want to very clearly ask you, 
Mr. Bowersox, is NASA requiring the use of commercial vehicles 
to launch the lunar landing system? You said you wanted 
options, but I want to be clear. I'm understanding these as 
requirements, so can you clarify that for me?
    Mr. Bowersox. That's what's in our plan is that we're going 
to use commercial rockets to launch the landing systems.
    Chairwoman Horn. OK. So NASA is requiring, which is not the 
same as having options. It's a requirement----
    Mr. Bowersox. It's----
    Chairwoman Horn [continuing]. In this plan?
    Mr. Bowersox. It's a requirement in the SLS, but, I mean, 
we should be careful about what our definition of commercial 
systems is. You know, there's lots of different rockets out 
there. We don't even know what is going to be developed in the 
future, so it's hard to say exactly which rocket will launch 
our landing systems. And we're open to options. We just want to 
make sure that there's some competitive pressure, and we'd like 
our providers to get their launch vehicle commercially.
    Chairwoman Horn. I'm going to let you say something. I'm 
going to respond very quickly that I think, just to be clear, 
there is no commercial launch vehicle that is capable of 
launching--or has demonstrated launch capability for the 15 
megatons right now, which is the minimum of one?
    Mr. Bowersox. We don't have a vehicle that has actually 
demonstrated that capability, but we've got multiples in 
development.
    Chairwoman Horn. OK. And, Mr. Cooke, I'd love to hear your 
thoughts on this.
    Mr. Cooke. In talking about competition for vehicles, 
currently, the SLS cannot compete probably legally because it's 
a government system. It is integrated by the government. The 
requirements are driven in the government, and there are 
different contracts. There's the core stages, which has been 
talked about a lot. There is also the Northrop Grumman 
boosters. There are also the rocket engines, the main engines. 
They're all different contracts. As a government-owned and 
operated program, I don't think legally it can compete if it's 
to be a competition.
    Chairwoman Horn. Thank you. That was an important 
clarification.
    And I have many more followups on that. When we're talking 
about the heavy lift needs and capabilities, and, Mr. Cooke, 
I'd love to hear little bit more on that point because if we're 
talking about a human, I agree, a schedule and goals that are 
lofty are important. And we've also seen some of the challenges 
and the lack of certainty when we've gone back and forth, and I 
think that's what we're working on is to build certainty into 
this as much as we can because there's a lot of unknowns and 
unknowns that we're going to discover as we do the hard things 
moving forward.
    And it seems clear to me that there is a need for a heavy 
lift launch vehicle, and there is a vast distance between what 
SLS has been planned for and the upper--and the heavy lift 
portion of that and some of these others. So I think my 
question to you, Mr. Cooke, is, what difference that would make 
practically in breaking it up? I know we've talked about risk 
and in having a more integrated system in our pathway to Mars 
using the Moon as an interim step.
    Mr. Cooke. I think it's very important that you be able to 
launch as much integrated hardware as you can without having to 
assemble it, which brings on complications. It potentially 
creates heavier interfaces between them. When you join two 
pieces of space hardware, they are birthed or docked and they 
have connections, they have fluid transfers, they have--if you 
can integrate that on the ground and have it tested, it's much 
simpler than trying to put it together in space, which will 
require an incredible amount of analysis and planning 
operationally and risk in it actually happening correctly. So 
being able to launch an integrated lander all at once is a 
simpler, more straightforward approach. And it provides more--
having the larger volume and mass capability allows it to be 
the size it needs to be for transporting the various elements 
that will go to the Moon, not just the ascent vehicle but also 
habitats.
    Another thing is going to a small lander because of the 
constraints currently placed and having it launch on a 
commercial launch vehicle may drive the fuel that's used on the 
lander to be storable like what we call hypergolic fuels that 
are different than fuels that you might use that you get from 
the Moon. There's hydrogen and oxygen on the Moon in the form 
of ice, we think, in the craters at the poles, and if you're 
using storable fuels on your lander, that's one less place you 
can bring that to bear and I think diminishes the possibility 
of commercial development at the Moon.
    Chairwoman Horn. Thank you. That's very helpful. And adding 
on, I've got a couple more followups, and then I think we have 
just one more individual that wants to ask a second round of 
questions. Following up on that, I would just like to reiterate 
that the analysis about cost and benefit, I believe that there 
is value in developing commercial capabilities. There is 
absolutely a space for it. We've seen it in so many other 
places. And I am concerned that the decisions are not being 
driven by what is most efficient or effective and what is most 
cost-efficient. And to reiterate that seeing those analyses 
from NASA and having the assurance that NASA is going to 
respond to the GAO request and to follow these procedures is 
critical.
    This is an investment of our taxpayer dollars, and we are 
all, I think, on this Committee, on board in understanding the 
need for us to help set course that can be followed and prevent 
some of the stops and starts and to advocating for sufficient 
funding. And it's very difficult for us to do that if we don't 
know what the cost analysis is, if we don't have transparency, 
if we don't see that the analysis has been done, if there is a 
decision that has been made that is not based on the most clear 
path, we know part of this is risky. And strapping people to 
rockets and sending them out of Earth's orbit is always going 
to be risky, and it's also an endeavor worth undertaking.
    And as the Committee with responsibility for oversight and 
authorization, it's also incumbent upon us to ensure that our 
taxpayer dollars are being spent wisely and that our 
investments as a Nation are being guided. And so what we need 
to see is an analysis of this, why these decisions were being 
made, what is driving them because options are important, and 
if there is not an analysis to back it up, why are these 
decisions being made? So we can set this up for success.
    Ms. Chaplain's report really shows many of these things, 
and it's not to undermine NASA. In fact, I think it's to 
support our human exploration program that we need full 
visibility on these decisions, so that we can better advocate 
and educate the public and our colleagues about what is 
happening and what it's going to take to get this done.
    And so to that end one more question I think is important, 
Mr. Bowersox, because you have mentioned this a couple of 
times, that decisions won't be made until a new Associate 
Administrator is selected. So my question is has NASA 
identified finalists? How close are we? Because working on 
tight timelines is impacted by the lack of an individual who 
can make those critical decisions. So where is NASA in that 
process?
    Mr. Bowersox. Well, first, I want to reassure you we're 
working tactically every day to make the decisions that need to 
be made and moving forward on anything that could compromise 
our 2024 date.
    And NASA--I mean, it's--I'm not handling the selection. 
It's being handled by our 9th floor A suite. They're working 
really hard work talking to candidates, and I think they've got 
a goal to actually be through with that process by the end of 
the year. And it's hard work. And we want to give them all the 
time they need because we want them to find the right 
candidate, right? We could be in a lot worse situation if we 
got the wrong candidate into the job.
    Chairwoman Horn. Thank you very much. Ms. Hill, you're 
recognized.
    Ms. Hill. Thank you so much. Mr. Bowersox, I just wanted to 
follow up on a letter that the OIG (Office of Inspector 
General) sent indicating that NASA will use the first three SLS 
flights for the Artemis missions and as a result could not have 
an SLS available for the Europa Clipper until at least 2025. Is 
that accurate?
    Mr. Bowersox. Right now, we think that's accurate.
    Ms. Hill. OK. What's the status of development of the cargo 
variant of the SLS payload fairing that would be used by Europa 
Clipper?
    Mr. Bowersox. Well, right now, by law there's certain work 
that we have to provide to launch Clipper, and so we have a 
cargo fairing for Clipper in work. And as part of the 
negotiations for this follow-on core contract that we talked 
about earlier--3 through 12--we're hoping that we can get to 
the flight rate where we would actually be able to provide an 
SLS to launch Clipper. But again, that requires performance 
that we haven't seen.
    Ms. Hill. NASA stated that it's aiming for an SLS launch 
cadence of approximately one per year. What if anything would 
prevent launching more than one SLS in a year? And how much 
would it cost to produce an additional SLS flight unit?
    Mr. Bowersox. Well, most of the costs that go into a 
vehicle like that are sort of fixed costs. The marginal costs 
are much less. I probably shouldn't quote a number, but it's a 
lot less than what we, you know, would spend for each 
individual year. And because it's under negotiation in the 
contract, I don't want to give that number. But we could do it 
for less to do that extra core, and it's a challenge that our 
team is looking at and would like to be able to provide that 
core for Clipper.
    Ms. Hill. So you think it's possible to do an additional 
one per year?
    Mr. Bowersox. I'm not ruling it out right now, but we have 
to see performance that we haven't seen yet, so I don't want to 
promise it to you.
    Ms. Hill. OK. And then switching gears for a second, so we 
talked about how some of the delays have to do with being 
willing to take less risk than we did previously. And I know at 
least some of that is risk to human life. We've talked about 
that with the spacesuits and I want to talk about ISS and what 
we've learned on the International Space Station over the last 
19 years that enables us to more safely send astronauts to 
operate for longer periods of time in deep space. What more can 
we gain from additional year-long missions or other human 
research testing on ISS to prepare for these missions? And, 
generally speaking, is that an asset that we will face, you 
know, problems from losing with lack of access to it?
    Mr. Bowersox. Well, ISS is an integral part of our Moon-to-
Mars strategy. I mean, everything fits together from the 
surface of the Earth up to the surface of the Moon and then out 
to Mars. What we need ISS for, is to gather the data on how 
humans live in microgravity. Right now, the longest we've seen 
is roughly a year with a U.S. crewmember, and we're talking 
about potentially 3-year missions to Mars. So we need that 
data. We need to see just what the risks are.
    Ms. Hill. And would either of you like to respond as well?
    Mr. Cooke. The International Space Station was designed to 
do those things. It was designed to get us the data we need for 
long-term existence in space and prove technologies and test 
hardware that we'll need for reliability.
    Ms. Hill. Ms. Chaplain?
    Ms. Chaplain. I don't have additional comments.
    Ms. Hill. OK. I have 1 minute and 30 seconds. Anything else 
you want to add before we wrap up just generally?
    Mr. Bowersox. Sure. The other stuff we want to do on the 
ISS is test the life-support systems that we use to go to Mars. 
Those have to be super-efficient and super-reliable. The best 
place to test them is some place close to Earth, and we're 
doing a lot of that at the International Space Station.
    Ms. Hill. Great. Anything else you want to add on a subject 
not related to ISS?
    Ms. Chaplain. I'd like to comment on what Chairwoman Horn 
was saying. In terms of going forward, you hear a lot of 
different alternatives, preferences that people have and 
reasons for having them. It really makes it important to 
develop a robust analysis of alternatives before you embark on 
these programs so that you do understand costs, schedule, 
performance, and the reasons why certain choices were made.
    We do have a study going on about that like what are they 
looking at in terms of their analyses for the ways forward, so 
hopefully by early next year, you'll see the results of that 
work.
    Ms. Hill. Well, thank you so much. I really appreciate your 
time. I yield back.
    Chairwoman Horn. Thank you, Ms. Hill.
    And thank you, Ms. Chaplain, for mentioning that. We look 
forward to seeing the results of that study. Bottom line, we're 
all trying to do the best, and I think the more information we 
have that we can for the agency, for our Nation, for many 
different reasons, and the more information we have and the 
more clear it is, the better decisions that we can make. So I 
thank you for that and look forward to seeing that study.
    Before we bring the hearing to a close, I want to say thank 
you to all of our witnesses. I hope that it's clear that we are 
determined and dedicated to asking the hard questions, to make 
sure that we set NASA up for success and that we are being 
responsible to our taxpayers and to making sure that we're 
making the best decisions possible. And we really appreciate 
your expertise.
    I also want to say that the record will remain open for 2 
weeks following this, and we are likely to follow up with some 
written questions for the record for each of you.
    Again, thank you to the witnesses. Thank you to everyone 
who's here and to the other Committee Members for your 
participation.
    And we're now adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]

                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Mr. Kenneth Bowersox

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Ms. Cristina Chaplain

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Doug Cooke

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
[
                                 <all>
</pre></body></html>
